<html>
<title> - DISASTER CAPACITY IN THE NATIONAL CAPITAL REGION: EXPERIENCES, CAPABILITIES, AND WEAKNESSES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          DISASTER CAPACITY IN
                      THE NATIONAL CAPITAL REGION:
                       EXPERIENCES, CAPABILITIES,
                             AND WEAKNESSES

=======================================================================

                                (111-22)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
48-880                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

DeAtley, Craig, Director, Institute for Public Health Emergency 
  Response.......................................................    50
Delinski, Jeff, Deputy Chief Special Operations Bureau, 
  Washington Metropolitan Area Transit Authority.................    28
Gallegos, Gabrielle, Director of Law Enforcement Policy, 
  Department of Homeland Security................................     6
Herron, Vernon, Deputy Chief Administrative Officer for Public 
  Safety/Director of Homeland Security, Office of the County 
  Executive, Prince George's County..............................    28
Mathes, Linda, President and CEO, American Red Cross of the 
  National Capital Area..........................................    50
Nichols, Daniel R., Assistant Chief, United States Capitol Police 
  Department.....................................................     6
Nickles, Peter, Attorney General, District of Columbia; Daniel R. 
  Nichols, Assistant Chief, United States Capitol Police 
  Department.....................................................     6
Sarubbi, Jonathan, Region III Administrator, FEMA................    50
Schwartz, Major General Errol R., Commanding General, District of 
  Columbia National Guard........................................    28
Wall, Kenneth, Acting Director, Office of National Capital 
  Region, FEMA...................................................    50

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Diaz-Balart, Hon. Mario, of Florida..............................    71
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    74

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

DeAtley, Craig...................................................    78
Delinski, Jeff...................................................   127
Herron, Vernon...................................................   135
Mathes, Linda....................................................   143
Nichols, Daniel R................................................   162
Nickles, Peter...................................................   165
Sarubbi, Jonathan................................................   170
Schwartz, Major General Errol R..................................   192

                       SUBMISSIONS FOR THE RECORD

DeAtley, Craig, Director, Institute for Public Health Emergency 
  Response:

      ``A Blueprint for Emergency Preparedness by Nonprofits,'' 
        The Greater Washington Task Force on Nonprofit Emergency 
        Preparedness, September 2003.............................    81
      "District of Columbia Healthcare Facilities Emergency Care 
        Partnership Program", chart..............................   124
      "Washington Hospital Center at a Glance", fact sheet.......   125
      "HHS Awards $25 Million in Healthcare Partnership Emergency 
        Care", News Release......................................   126
      Responses to questions from the Subcommittee...............   117
Herron, Vernon, Deputy Chief Administrative Officer for Public 
  Safety/Director of Homeland Security, Office of the County 
  Executive, Prince George's County, responses to questions from 
  the Subcommittee...............................................   141
Mathes, Linda, President and CEO, American Red Cross of the 
  National Capital Area:.........................................

      List of schools............................................   151
      Responses to questions from the Subcommittee...............   156
Sarubbi, Jonathan, Region III Administrator, FEMA, responses to 
  questions from the Subcommittee................................   179

[GRAPHIC] [TIFF OMITTED] T8880.001

[GRAPHIC] [TIFF OMITTED] T8880.002

[GRAPHIC] [TIFF OMITTED] T8880.003

[GRAPHIC] [TIFF OMITTED] T8880.004



                        DISASTER CAPACITY IN THE
                 NATIONAL CAPITAL REGION: EXPERIENCES,
                      CAPABILITIES, AND WEAKNESSES

                              ----------                              


                         Friday, April 3, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
               Subcommittee on Economic Development, Public
                        Buildings and Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. The hearing will come to order. And I will ask 
the first panel if you will be seated.
    While the Senate hasn't finished its work, the House 
finished its work, finished the budget, and I think most people 
are home by now.
    This hearing is so important, however, that we wanted to 
proceed in any case. The Ranking Member, Mr. Diaz-Balart, has a 
statement for the record. I am pleased to receive it at this 
time.
    I welcome today's witnesses at this hearing concerning an 
important mission of the Federal Emergency Management Agency, 
an agency of the Department of Homeland Security, under the 
jurisdiction of our Subcommittee.
    But for this hearing, I would be attending the funeral of 
Mrs. Loree Murray, a gentle soul who became a beacon of 
resistance of gun violence when crack and the crack wars 
gripped the District in the 1990's. An indication of Mrs. 
Murray's success as a citizen anticrime activist is that, 
before I arrived at the viewing and wake last night, I am told 
that D.C. Police Chief Cathy Lanier was in attendance. Mrs. 
Murray was also such a statehood and voting rights advocate 
that her family placed her ``Free D.C.'' cap in her casket.
    Considering that an important part of what concerns us at 
today's hearing is a new firearms risk posed by a dangerous gun 
amendment proposed for the District of Columbia House Voting 
Rights Act. I told Mrs. Murray's family and friends last night 
that I wanted to dedicate today's hearing to Loree Murray.
    Today we are pleased to welcome Federal and District law 
enforcement officials, emergency managers, and first responders 
to testify concerning steps to prevent, prepare for, and 
respond as necessary to incidents of all types. FEMA is the 
lead agency charged with preparing for and responding to 
disasters and emergencies, whether natural or manmade.
    When Congress established the Department of Homeland 
Security shortly after 9/11, the statute that created it also 
established a Special Office of National Capital Region 
Coordination, now placed in FEMA. Our region faces the same 
risks as other major areas of our country from natural 
disasters, such as the 2001 floods in the Bloomingdale section 
of the District of Columbia, or manmade disasters, such as the 
tragic plane crash into the Pentagon on September 11, 2001.
    The Nation's Capital occupies a special place in the 
Nation's security network with the District ranking in the top 
four at risk for terrorist threats, along with New York, 
Chicago, and San Francisco. However, the challenges of 
responding to threats in the seat of the Federal Government are 
unique, and as a result, Congress established the NCCR, the 
only regional office inside the DHS charged specifically with 
coordinating security for one region alone.
    The unique nature of the National Capital Region brings 
distinct challenges for the region and its officials. For 
example, the Metropolitan Police Department must work with no 
less than 32 Federal police agencies, and MPD, the largest 
police force in the region, is an indispensable part of the 
Federal security network for the Nation's Capital and the 
National Capital Region of our Nation.
    The recent inauguration, the largest event ever held in the 
Nation's Capital, with an estimated 2 million people in 
attendance, including foreign dignitaries, entertainment stars, 
and virtually every important Federal and State official in the 
United States, is perhaps the quintessential example of what 
makes the work of elected officials and police and security 
officials in our Nation's Capital uniquely difficult.
    Although hearings have been held concerning some problems 
at the 2009 inaugurations, such as citizens who were held in 
the Third Street tunnel, it is noteworthy that there was not a 
single arrest at the National Mall, notwithstanding the 
unprecedented crowds and the disappointments of some concerning 
admission. The Third Street tunnel problems are among those 
that will be studied by the Government Accountability Office 
with a report and recommendation to come.
    However, Mayor Adrian Fenty, D.C. Police Chief Cathy 
Lanier, Metro, the Capitol Police, and the DHS agencies 
involved, including the lead agency, the Secret Service, 
deserve credit for the planning and operations that resulted in 
what most agree was an unusually successful event. Although the 
problems that arose require study, we are also interested in 
how the Federal and District agencies in cooperation with the 
region pulled off an event the size of which was unlike 
anything we had seen before, as many as five times the number 
of people on the Mall as anyone had ever seen, and how they 
were able to keep it up for 4 days of the engagement, that is 
also something that will help us to understand what a unique 
event can bring since nobody knew how many people would come, 
and the authorities had to be prepared for however many came, 
almost all of them without tickets.
    Since 9/11, this region has had notable success working 
together to shore up unique risks to homeland security here. 
Literally billions of dollars have been spent, not only to 
repair the Pentagon, where 184 people were lost, but to fortify 
Metro against the unique vulnerabilities of the National 
Capital Region with its porous borders, 14 million people, 
200,000 Federal employees, and national and foreign dignitaries 
that pose security risks as they move often in motorcades 
throughout the National Capital Region.
    No risk is more apparent to homeland security in particular 
than the widespread availability of firearms. While the city 
was in the act of writing new legislation this summer, the 
National Rifle Association forced a number of Democratic 
Members of the House during the primaries just before the 2008 
election to demand an up-and-down vote on a bill to eliminate 
all gun laws in the District of Columbia and to strip the 
District of all public safety gun enforcement jurisdiction.
    This bill is essentially the same as the Ensign Amendment 
now attached to the District of Columbia House Voting Rights 
legislation passed by the Senate in February. Despite hearings 
and testimony from Federal and D.C. police chiefs that the gun 
bill posed a, quote, ``grave threat'' to elected and appointed 
Federal officials and visitors in addition to D.C. Residents, 
the bill passed the House on the belief that it could be 
stopped in the Senate, and we were able to do so.
    However, despite the hearings, almost no one had ever 
looked at the gun bill itself. They were focused on not doing 
harm to Members from more conservative districts who were 
facing election. Now, with the Ensign Amendment attached to the 
Voting Rights bill in the Senate, the time has come to look the 
Ensign Amendment straight in the eyes.
    Understand this, we are going to get the D.C. Voting Rights 
passed this year. Therefore, if the Ensign Amendment is on the 
bill in the House, it will become law right along with the D.C. 
House Voting Rights Act.
    The Congress has largely regarded the gun bill as just 
another piece of local legislation. However, Federal police 
must operate largely under the District's gun laws and have 
testified that these gun laws have been critical to homeland 
security.
    Today we intend to face head on what it would mean for the 
Nation's Capital to have no local gun laws. We must ask whether 
the gun laws, as the Washington Post recently noted, 
``protecting the lives of D.C. Residents as well as those of 
tourists and foreign dignitaries, national leaders, and the 
President, and his family,'' end quote, should be eliminated.
    Before us today is whether appointed and elected Federal 
officials, employees, visitors and Federal presence would be 
more or less secure under the Ensign Amendment, which would 
allow, and let's here hear it and face it, would allow 
military-style weapons, including 50-caliber armor-piercing 
guns, to be legally possessed without limit on the numbers in 
the Nation's Capital.
    The Nation's Capital becomes the only jurisdiction 
permitting, indeed inviting, people to cross State lines to 
purchase guns and bring them back from two nearby States, 
facilitating gun running by criminals, felons, or terrorists 
between the States and the Nation's Capital. A gun show 
loophole would be open eliminating the assault weapons ban, 
among other things, without any background checks of any kind, 
permitting the purchase of weapons of every kind from private 
individuals at gun shows on a cash-and-carry basis. No gun 
registration is permitted, and therefore, there would be no way 
for police to trace guns used in crimes.
    The District is deprived of all gun safety jurisdiction to 
revise its laws for the safety of residents and visitors and 
government officials even if serious threats arise. Any person 
could bring guns concealed or openly to any workplace in the 
city. Employees therefore could bring guns to a Wizards game if 
they worked the at the Verizon Center, to the National Baseball 
Park at Nationals Park, to a national convention at the 
Convention Center, to Pepco headquarters, to law offices, to 
other small and large workplaces throughout the city, to 
churches and other places of worship, to bars, restaurants and 
nightclubs, to hotels, to power plants, and to all District 
government offices. In short, would elected and appointed 
Federal officials and foreign dignitaries, visitors and 
District residents be safer and more secure with or without the 
Ensign Amendment?
    Asked another way, what is to be gained from the Ensign 
Amendment? The time to ask these questions is now, not after 
there is blowblack and recriminations following serious gun 
carnage affecting residents, Federal officials, and employees. 
Our job is to prevent, not only to protect.
    Today's hearing, of course, will focus on not only this 
most recent and serious threat to homeland security since 9/11, 
but on all the steps that have been taken by the agencies 
involved, including the District of Columbia National Guard, 
the Department of Homeland Security, FEMA, the U.S. Capitol 
Police, the Washington Metropolitan Area Transportation 
Authority Police, the D.C. Attorney General, Prince George's 
County Office of the County Executive, the Washington Hospital 
Center, and the American Red Cross.
    Yet, the hearing is likely to be remembered most by whether 
we in Congress, with a clear threat in plain sight on the 
Voting Rights bill, did what was required to protect the 
Nation's Capital and the National Capital Region and all who 
live and work here. We are deeply grateful to today's 
witnesses.
    May I ask my good friend and colleague, Ms. Edwards, if she 
has any opening statement.
    Ms. Edwards. Thank you, Madam Chairwoman.
    And just a brief statement. First, I want to say to all of 
the witnesses who will appear today that you have a unique 
responsibility in this region. And this region, as you know, is 
different from just about any other in the country, both in 
terms of our vulnerability and access, our meaning to this 
country and around the world. So all the agencies in this very 
close region sharing borders, crossing borders, require the 
kind of coordination and communication that is different than 
almost anyplace else.
    So I thank you in advance for your testimony today and for 
helping me as a new legislator to understand your 
responsibilities, the challenges that you face, and what we 
might do here in the United States Congress to try to mitigate 
some of those barriers and those challenges.
    I will say, as a representative of Prince George's and 
Montgomery County in Maryland's Fourth Congressional District, 
I can only recall my experiences as a parent and a worker on 9/
11 and the challenges of trying to get to a son over here on 
Capitol Hill while I was over on Dupont Circle, while Dad was 
over in Virginia, and trying to communicate, and the lack of 
communication, the difficulty of moving in and getting out of 
the city. And I thought just then that while, overall 
obviously, we handled that disaster and tragedy quite well, we 
still have a lot to do and especially if there were a more 
compelling disaster in this region, just the mere movement of 
people and vehicles and emergency services.
    As someone who represents Prince George's and Montgomery 
Counties, I have been more recently focused on things like our 
communication systems for law enforcement, whether we have the 
kinds of communication systems that allow us to communicate 
across agencies and law enforcement operations. I am concerned 
about that.
    I am concerned about our emergency room and hospital 
capacity to handle a tremendous disaster. We are home, as you 
know, to Adventist Hospital, to Prince George's County 
Hospital, to numerous other medical facilities, and yet in 
that, we also know that these facilities face tremendous 
financial and other challenges. And we have to, I think, in 
this region pay particular focus to those facilities and make 
sure that they have the emergency services and capacity to 
handle any impending disaster. I am not sure, frankly, that we 
are quite there yet. So I look forward to your testimony today 
and learning from each of you as you appear, and obviously, 
thank the Chairwoman for the foresight in pulling this 
discussion together.
    And let me just say on the Chairwoman's closing remarks, 
particularly regarding D.C.'s autonomy and ability to make its 
own decisions both about emergency services and other decisions 
for the city, I am full square behind and with her because we 
know in this jurisdiction that it is important to have people 
who are capable of making decisions independently for their 
jurisdictions but working together.
    And we want a full partner, a full voting partner, in the 
District of Columbia. And Maryland doesn't want the 
responsibility of registering guns from D.C. Residents and 
moving firearms across borders. That poses a tremendous burden 
on our State. It poses an absolute burden on our local law 
enforcement in Prince George's and Montgomery Counties. And so 
I look forward to continuing to work with the Chairwoman to 
address these issues as they impact our ability to respond to 
disasters and emergencies.
    Thank you very much, and I yield.
    Ms. Norton. Thank you, Ms. Edwards.
    Mr. Perriello, do you have a comment you would like to 
make, opening comments? Thank you.
    I am very grateful to today's opening panel. I am grateful 
particularly to District of Columbia Attorney General Peter 
Nickles, who volunteered to come when Police Chief Cathy Lanier 
encountered a family emergency. I am very pleased and grateful 
to you, Attorney General Nickles, for coming.
    I am pleased also to hear from the Assistant Chief of the 
United States Capitol Police Department, who is here for Chief 
Morse, who had to be away today.
    We work very closely with you, Assistant Chief Nichols, on 
homeland security here in the Capitol and in the District.
    And I am particularly grateful to the administration for 
providing us with a witness from the Department of Homeland 
Security, Gabrielle Gallegos, who is Director of Law 
Enforcement Policy at the Department of Homeland Security.
    Ms. Norton. Let us begin with Attorney General Nickles.

   TESTIMONY OF PETER NICKLES, ATTORNEY GENERAL, DISTRICT OF 
  COLUMBIA; DANIEL R. NICHOLS, ASSISTANT CHIEF, UNITED STATES 
CAPITOL POLICE DEPARTMENT; AND GABRIELLE GALLEGOS, DIRECTOR OF 
    LAW ENFORCEMENT POLICY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Nickles. Good morning, Chairwoman and Members of the 
Committee.
    I appeared with the Chief almost a year ago when we 
presented testimony with respect to the gun legislation that 
was being considered by the House. And I am a poor substitute 
for Chief Lanier, but I am very happy to be here to talk about 
the impact on homeland security and this Nation's Capital of 
what has been called the Ensign Amendment.
    I want to first talk about a very important proposition, 
and that is that the District of Columbia is in compliance with 
the Second Amendment ruling of the Supreme Court in the Heller 
case. Now, it is a fact that some of the same individuals and 
lawyers who contest the original District legislation have sued 
again, but I am confident and I would think the Congress would 
be confident that the courts will ultimately resolve any issues 
that relate to a very long and deliberate process engaged in by 
the mayor and the City Council to satisfy the requirements of 
the Supreme Court.
    We fully respect the decision of the Supreme Court, and we 
have signed into law and promulgated regulations that, in my 
view as a lawyer who has practiced some 45 years, fully satisfy 
the directives of the Supreme Court.
    What is important to emphasize is that the laws that the 
mayor and the Council have enacted affirm the District 
residents' right to register hand guns and possess them for 
self-defense in the home. I take note of the statement of 
Justice Scalia, who wrote the majority opinion in Heller. And 
he underscored the District's authority to regulate firearms 
under the Second Amendment, and he stated, and I think it bears 
repetition in this discussion, ``although we do not undertake 
an exhaustive historical analysis today of the full scope of 
the Second Amendment, nothing in our opinion should be taken to 
cast doubt on longstanding prohibitions on the possession of 
firearms by felons and the mentally ill, or laws forbidding the 
carrying of firearms in sensitive places, such as schools and 
government buildings, or laws imposing conditions and 
qualifications on the commercial sale of arms.''
    Consistent with that opinion, the District, like many 
States, and the District is not alone here, has determined that 
assault weapons and certain unsafe firearms are not eligible to 
be registered and possessed.
    I want to correct some of the misinformation that I have 
heard about the District's gun laws. Shot guns, rifles, and 
hand guns, including many semi-automatic models, can all be 
registered in the District. Indeed, rifles and shot guns, 
including many semi-automatic versions, were never prohibited 
at all, and residents have been able to register many semi-
automatic handguns since September 16, 2008. And since the 
Heller decision alone, more than 400 handguns and 160 long guns 
have been registered. There is currently one licensed firearms 
dealer in the District, and we think more will follow because 
the market will take care of that.
    To state it clearly, it is no more difficult to open a 
dealership here than opening a restaurant. And the District is 
certainly not alone in requiring a firearm dealer's license. 
Indeed, 17 States do exactly what the District has enacted.
    Now, the Ensign Amendment. In my view, the Ensign Amendment 
goes far beyond compliance with Heller. Most importantly, this 
amendment would repeal the District's ban on assault weapons. 
The city's ban is similar to the Federal ban which was in place 
until 2004, and that ban was not unconstitutional. And Federal 
law had a sunset provision after 10 years, at which time it was 
allowed to expire, and what is most important is that the 
authority then reverted to the States.
    And then, in all, 10 States have banned or regulated 
assault weapons with 5 States having provisions that are 
similar, if not identical, to that of D.C. Even the ATF has 
described assault weapons, and I quote, as ``large-capacity 
semi-automatic firearms designed for rapid-fire combat use. 
Most are patterned after machine guns used by military 
forces.'' Certainly the District's ban of this type of weapon 
is a reasonable exercise of its regulatory authority and 
certainly consistent with what Justice Scalia wrote in the 
Heller case.
    Now, critics of the District's ban will argue that 
criminals can get assault weapons anyway, and we all know that 
the use of assault weapons by criminals is a growing problem in 
cities across the country. We saw that most recently in the 
tragic incident in Oakland, California, in which two law 
enforcement officers were killed by a parolee with an assault 
rifle.
    Fortunately, at this time, assault weapons do not have a 
strong presence in D.C. Last year, of more than 2,500 illegal 
firearms recovered by police, only 1 percent were assault 
weapons. Certainly a determined criminal could get an assault 
weapon, and if our assault weapons ban were merely repealed, 
anyone eligible to purchase a firearm under Federal law would 
be able to.
    But the Ensign Amendment goes well beyond that by taking 
the unprecedented step of allowing District residents to 
purchase firearms in Maryland and Virginia, which would have a 
significant effect on the ability of this entire region to 
regulate firearms, including assault weapons. Nowhere in the 
Nation, nowhere in the Nation, are residents allowed to 
purchase a firearm in another State without going through a 
federally licensed dealer in their own State, nowhere in the 
Nation.
    As the Governor of Maryland warned, his State would not be 
able properly to regulate firearms purchased by District 
residents. Maryland does not have the necessary expertise to 
interpret District laws, much less the many possible 
dispositions under the city's criminal justice system. The 
result would be that even people who are prohibited under 
Federal law from purchasing a firearm may be able to take 
advantage of those gaps and buy a weapon, including an assault 
weapon, in Maryland or Virginia.
    Last September, our distinguished Chief of Police, Kathy 
Lanier, testified before the Committee on Oversight and 
Government Reform about the special concerns in protecting this 
unique city, the District of Columbia. The terrorist attacks of 
September 11, 2001, demonstrated something that we have known 
for some time: Government facilities, dignitaries, and public 
servants are prime targets for terrorists, both foreign and 
domestic. Protecting government officials and infrastructure is 
a challenge for every city in the United States, but in 
Washington, the likelihood of attack is higher, and the 
challenges to protect the city are greater. As a result, it 
would seem to me that the District is the last place where U.S. 
residents across the country would want to allow assault 
weapons.
    The District's high concentration of iconic structures, 
such as the national monuments, the White House, and, of 
course, the Capitol, make it a highly attractive target. The 
high-profile human targets, from the Nation's top elected 
leaders to the more than 400 foreign dignitaries that make 
official visits to D.C. Each year, are obviously an attractive 
target. Moreover, we should not be solely concerned about well-
coordinated terrorist attacks. We need also to consider the 
unsophisticated lone wolf terrorist angry at the U.S. 
Government for whatever reason.
    The second key vulnerability, and Madam Chairwoman, I will 
come to an end very shortly if you will give me a few more 
seconds, is, due to the sheer volume of secure motorcades 
traveling in this city every day, given the daily movements 
around the city of the President, the Vice President, and their 
families, and the fact that almost 3,000 foreign dignitaries 
spend time in our city each year, the routes for those 
movements cannot be shut down as they are in other cities.
    As you know from your own districts, when the President and 
Vice President travel outside of Washington, roads are cleared 
of all traffic, parked cars and such. And spectators are often 
kept behind barricades. We don't do this in this city because 
shutting down the routes for every motorcade would make it 
virtually impossible to navigate much of the city on a 
continuous basis, and we do not want the Nation's Capital to 
take on the character of an armed fortress.
    This freedom, however, comes with the cost of high 
vulnerability both for the officials and dignitaries and the 
general population. As Chief Lanier noted last September, in 
attempted and successful assassinations around the world, the 
first step in attacking a motorcade is frequently to take out 
the security detail with semi-automatic and automatic firearms. 
This forces the motorcade to stop, at which point the 
terrorists can use explosives to attack the armored vehicles 
carrying the targeted individuals.
    We all have an immediate concern for any life threatened or 
lost in a terrorist event. But, as my colleague Chief Lanier 
noted, here in the Nation's Capital, we must recognize that any 
terrorist incident, no matter how small, would garner worldwide 
attention and could have significant international 
implications. The broader repercussions of an incident in the 
city should be of grave concern to everyone in this room.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Attorney General Nickles.
    Mr. Nichols, Chief Nichols.
    Mr. Nichols. Good afternoon, ma'am.
    Thank you for the opportunity to appear before you today to 
discuss the public safety and the consequence of management 
capabilities of the United States Capitol Police. I would like 
to make some brief opening remarks and, with your permission, 
submit my written testimony for the record.
    The U.S. Capitol Police accomplishes its mission through a 
variety of functions to provide comprehensive around-the-clock 
protection for the United States Congress, the legislative 
process, the Capitol complex, and the millions of visitors from 
across the globe that come to see democracy at work. In an 
effort to maximize our ability to prepare for and respond to 
incidents affecting public safety, the U.S. Capitol police 
specifically focuses on key internal capabilities which, when 
necessary, can be augmented by specialized resources from our 
partners in the National Capital Region. Our current internal 
capabilities show the rewards of several years of investment in 
training, robust command-and-control systems, and physical 
security improvements.
    Providing security, protection, and law enforcement 
services to the United States Congress in the Capitol Complex 
in a post-9/11 threat environment is a challenging task. To do 
this, we rely on the provisions of Title II of U.S. Code 1961, 
which states, ``Capitol police shall police the United States 
Capitol Buildings and Grounds under the direction of the 
Capitol Police Board.'' We also rely on Title XL of the U.S. 
Code 5104, which states, ``except as authorized by regulations 
prescribed by the Capitol Police Board, persons may not carry 
on or have readily accessible to any individual on the Capitol 
Grounds or in any of the Capitol Buildings a firearm, dangerous 
weapon, explosives, or an incendiary device.'' We have recently 
made a number of high-profile gun, explosives, and dangerous 
weapons arrests through interdiction and security screening.
    As the host law enforcement agency for many events of 
national significance, we understand that working with our many 
partners in the National Capital Region and sharing our 
resources is imperative. In recent years, we have worked hard 
to improve our interoperability with local agencies, such as 
the D.C. Fire Department and the Metropolitan Police Department 
as well as our Federal partners in the National Capital Region, 
including the FBI, U.S. Secret Service, FEMA, Department of 
Health and Human Services, and the Department of Defense.
    The planning for such events involves an all-hazards 
approach, an appropriate risk analysis, an event-specific 
threat assessment, and a comprehensive crisis management plan 
to ensure we are prepared to implement appropriate protective 
measures with little or no notice. As an example, the U.S. 
Capitol Police successfully implemented a mass notification and 
evacuation of more than 8,000 people at two consecutive July 
4th concerts in 2006 and 2007. We had to air security threat 
evacuations at the Capitol Complex, one during President 
Reagan's state funeral, demonstrating our ability to move large 
amounts of people into safety while maintaining the security 
and integrity of all legislative facilities. These evacuations 
were based on imminent threat of severe weather creating unsafe 
conditions for our visitors with regard to the two concerts, 
and a direct air security threat to the Capitol Complex during 
other events.
    I would like to also acknowledge the relationship we enjoy 
between the United States Capitol Police and the Capitol Police 
Board. The support, guidance and oversight provided by this 
entity allow the House of Representatives, the Senate, and the 
U.S. Capitol Police planning to maintain a direct path and 
ensures consistent messages are provided across Capitol Hill. 
Consistent communications with this body ensures that we will 
be able to elicit additional resources if they are required. 
This process has been utilized effectively in the past, 
allowing the U.S. Capitol to supplement its resources and/or 
extend our abilities of the resources we have on hand every 
day.
    Thank you, Madam Chair. This concludes my opening remarks, 
and I will be happy to answer any questions that you have.
    Ms. Norton. Thank you, Mr. Nichols.
    Ms. Gallegos.
    Ms. Gallegos. Thank you, Madam Chairwoman and other 
distinguished Members of the Subcommittee.
    I am Gabrielle Gallegos, and I am the Director of Law 
Enforcement and Information Policy at the Department of 
Homeland Security.
    I appreciate being asked to appear before you, and on 
behalf of the department, I very much want to recognize the 
hard work that Congresswoman Norton has done over the years on 
a range of important homeland security issues that impact the 
safety and security of Washington, D.C., and the Capital 
Region.
    As we all know, Washington, D.C., is the site of numerous 
embassies, international organizations, and Federal offices. 
The high-profile events that occur in Washington and the many 
dignitaries and officials that visit, live, and work here can 
pose unique challenges.
    That D.C. Is our Nation's Capital naturally affects the 
security picture. DHS's mission is to address the broad range 
of potential threats that can impact that security. Threats 
that include chemical, biological, radiological, and nuclear 
weapons, along with natural disasters of all types: threats 
that may impact human health or our critical infrastructure; 
threats that may come from other countries or originate right 
here at home.
    In developing and executing security policy in the National 
Capital Region, DHS is very aware that multiple factors affect 
the overall level of security. DHS recognizes that the security 
of the Capital may be affected by local conditions and 
policies. Also, given the prominence of Washington as the seat 
of government and the proximity to Washington of Maryland and 
Virginia and the other mid-Atlantic States, local circumstances 
in this city inevitably have an impact on the work of the 
Federal Government in promoting regional security. These and 
other matters remain important as we work on a coordinated plan 
to advance crucial goals in this area.
    The Department of Homeland Security works closely with 
local law enforcement and with all our State and local partners 
to bolster Federal, State, and local capacity to respond to the 
many security issues we face. One of the primary missions of 
the department is to support and coordinate with State and 
local partners, and I want to recognize the crucial 
relationships the department is fortunate to have with all of 
the local and regional police departments in the Capital 
region, the emergency managers and first responders, the State 
and local homeland security officers, and the National Guard.
    And I feel particularly honored to be here with my fellow 
witnesses today. They clearly represent the best of modern 
policing and the important partnerships that we have in this 
area. These working relationships and the mutual support they 
provide are the cornerstone of our ability as a Nation to 
achieve important security functions. We will continue to 
foster these relationships as we work to address both existing 
threats and emerging challenges.
    Thank, you and I would be pleased to answer any questions.
    Ms. Norton. Thank you again, Ms. Gallegos.
    Let me begin with Attorney General Nickles.
    Attorney General Nickles, you are one of the District's 
most distinguished attorneys working before the District was 
fortunate to attract you. And you are now the highest law 
enforcement officer in the District until we get you the full 
authority to be the District Attorney. So I am asking you some 
questions in light of your legal background and your role in 
the District.
    Now, after the Heller decision, the city changed its gun 
laws. The Heller decision speaks and uses the word throughout, 
``handguns.'' Does the new law in the District of Columbia 
disallow semi-automatic handguns?
    Mr. Nickles. The new law authorizes a certain type of semi-
automatics to be registered in the District, and I think it 
needs to be recounted that rifles and shotguns, including some 
semi-automatic versions, were never prohibited at all. So we 
have it--and I think a careful balance and the Council and the 
Mayor have tried to achieve, consistent with the Heller case, 
have been very receptive to the views of the gun proponents. 
This is a balance, protection of the safety of our citizens 
with the Second Amendment Rights of those same citizens. I 
think we have struck the right balance, Madam Chairwoman, and I 
think we have developed a scheme of legislation and regulation 
that is fully constitutional.
    Ms. Norton. Now, the Heller decision indicated that a 
person must be able to have firearms, including handguns, in 
the home and that these handguns must be kept operable. Is that 
the case with District laws today?
    Mr. Nickles. I think, effectively, yes, that we have 
protected the Second Amendment Right of a citizen to have a gun 
in the home for purposes of self-defense.
    Ms. Norton. Now, the Heller decision did not allow guns 
outside the home, is that correct? It spoke only of guns in the 
home?
    Mr. Nickles. Only in special cases where there were permits 
for security-type individuals, your statement is correct. The 
handgun or the registered gun, in our case, would be in the 
home.
    Ms. Norton. Let me ask Mr. Nichols, the Ensign Amendment 
uses the words that a person may have a home in his place of 
business. Well, the place of business for most people is where 
they work. Could I ask you what you think--first, let me ask 
you about the Capitol. How strict are the gun laws in the 
Capitol of the United States?
    Mr. Nichols. The gun laws within our jurisdiction, the U.S. 
Capitol Complex, are very strict. As I mentioned in my opening 
statement, we rely on Title XL of the U.S. Code to prohibit all 
handguns, weapons, and incendiary devices within our 
jurisdiction.
    Ms. Norton. So no handguns, no guns of any kind can come 
into this Capitol, and everybody in this Capitol is fully 
protected from guns in this Capitol, even though it is a place 
of business?
    Mr. Nichols. Yes, ma'am. They are protected by us through 
the----
    Ms. Norton. Is this the case with the Federal courts as 
well?
    Mr. Nichols. I am sorry?
    Ms. Norton. Is this the case with Federal courts as well, 
that you can't take a handgun into Federal courts of this city?
    Mr. Nichols. That is correct. I believe that there are also 
restrictions, even though it is not our jurisdiction, there are 
restrictions that deal with Federal properties elsewhere in the 
city, also.
    Ms. Norton. Mr. Nickles, under this bill, could you take a 
gun into the Superior Court of the District of Columbia, the 
Court of Appeals of the District of Columbia?
    Mr. Nickles. I would hate to think that is the case. At the 
September 2008 hearing, we pointed out the problems in the 
legislation being considered about carrying firearms in public 
or concealed, and that was eliminated, but the dangerous 
language in the Ensign Amendment is that while it would allow 
the District to prohibit the carrying of firearms, concealed or 
openly, but except at the person's dwelling place, place of 
business, or on other land possessed by the person, as your 
opening statement pointed out, that language ``place of 
business'' or ``on other land possessed by the person'' is, in 
my view, very dangerous. I am not personally familiar with the 
rules of the Superior Court and the D.C. Court of Appeals. I 
know there is significant screening there. I would doubt that 
you could take guns into that venue, but----
    Ms. Norton. You think the courts could, in the District of 
Columbia, although--first of all, are these rules pursuant to 
the laws of the District of Columbia, any laws that the courts 
would have in the District of Columbia, pursuant to the laws of 
the District of Columbia, or would they, because they are 
Article I courts be protected under Federal legislation?
    Mr. Nickles. I think because they are Article I courts, 
they could adopt rules that would protect entrance into the 
courts, but all these other places of ``business'' that you 
discussed in your opening are potentially open, and that causes 
me great concern.
    Ms. Norton. Including the D.C. Council, the offices of the 
District Government and the like, all of those would be places 
of business where employees could have guns?
    Mr. Nickles. Potentially. This language is very unclear, 
but it is a loophole through which you could drive a truck.
    Ms. Norton. You patrol off-campus, Mr. Nichols. And when I 
was in my second term and the District was experiencing great 
gun carnage, like every large city in the United States, 
Congress decided it wasn't enough simply to allow the Capitol 
Police, if invaded, to do what it could but extended your 
jurisdiction. Would you describe your extended jurisdiction and 
how the changes in the D.C. Law would affect your ability to 
protect the Capitol in light of your extended jurisdiction, and 
what jurisdiction you think you need now and what jurisdiction 
you think you should have in any case?
    Mr. Nichols. The jurisdiction of the United States Capitol 
Police is rather unique. We have a primary jurisdiction that 
encompasses the United States Capitol, all the congressional 
buildings, about 19 congressional buildings, and all the 
adjoining streets and parks. It is about 40 city blocks that 
are in the core of the city. We have an extended jurisdiction 
that extends out several blocks in any direction from the 
United States Capitol where officers enjoy the same law 
enforcement authority as that of the Metropolitan Police 
Department, and we do have an active presence within that area 
to enforce the laws of the District.
    Also, elsewhere throughout the city, we have authority when 
we are on official business to enforce the laws when it comes 
to crimes of violence that are committed in our presence. So we 
can protect the citizenry when we are in any given area of the 
city at any given time. Layered on that is a Federal protective 
authority that is provided to the United States Capitol Police 
to protect Members of Congress anywhere within the United 
States, its territories and possessions.
    The way that we currently operate is that police in our 
primary jurisdiction, we apply both D.C. Code or Federal Code 
to ensure that we keep the complex safe. That is, if we 
identify people who are unlawfully in possession of firearms, 
incendiary devices, explosives, then, obviously, we can 
identify them readily and make that arrest.
    Elsewhere in the District of Columbia, just as we have all 
the time that I have been a police officer for 25 years, when 
you run into somebody on the street with a firearm, you can 
assume that they are either a law enforcement officer or a 
criminal because there really is no gray area in between right 
now with how the gun laws on the street are applied. That is 
how our officers are trained. [Submitted subsequent to the 
hearing: There are limited exceptions for select registered 
lawful firearms that are being transported.] Anyone in 
possession of a firearm that----
    Ms. Norton. If someone were to say, but, officer, I am on 
my way, and I am just taking it there, would that be presumed 
to be legal under the Ensign Amendment?
    Mr. Nichols. As you know, ma'am, since we are a legislative 
branch agency, we don't comment on pending legislation. I would 
have to study the implications of that. But speaking in 
general, because of the environment in which we work, anytime 
we come in contact with an individual who has a firearm, it is 
our position we have to treat them as if they are a threat 
until we can prove that they are not because we have to 
understand the context in which they are possessing that 
firearm and what their potential intent is. So anything that 
changes the current conditions that we are in is going to 
complicate our enforcement efforts.
    Ms. Norton. I am going to ask Ms. Gallegos a question, and 
then I will go on to the other Members and come back with 
remaining questions.
    Ms. Gallegos, you have testified that you work closely in 
the Department of Homeland Security with local jurisdictions. 
Would that include the District of Columbia Police Department, 
and if so, would changes such as the abolition of, elimination 
of gun laws in the District of Columbia hurt or enhance 
homeland security in the District of Columbia, in your view?
    Ms. Gallegos. We do work closely with the Metropolitan 
Police Department at the Department of Homeland Security, of 
course through the Secret Service and through the Federal 
Protective Service, and other law enforcement agencies.
    There are a number of threats, of course, that the Capitol 
faces, as you know. And we do the type of risk analysis and 
threat assessment that Chief Nichols was talking about. And we 
rely very closely on our State and local partners to provide 
the on-the-ground information about the threats in their 
jurisdictions and about the issues that are going to be most 
important to them, and about the types of support that they are 
going to need from the Department of Homeland Security.
    Ms. Norton. So if guns could be brought in, military-style 
weapons, for example, from other jurisdictions here, you would 
rely on who in order to help preserve Homeland Security in the 
District of Columbia?
    Ms. Gallegos. We would be relying on a coordinated 
approach. Just this morning, when I was coming here, listening 
on the radio hearing about a new partnership between the 
District of Columbia and Maryland and Virginia, those are the 
types of partnerships that the Department of Homeland Security 
wants to foster and applauds.
    Ms. Norton. Are you prepared for a situation where you 
would be called upon to help the jurisdictions detect military 
style weapons that could be used in the District of Columbia in 
light of home rule security risks? How would you handle that?
    Ms. Gallegos. We work with a variety of scenarios. We are 
constantly planning and preparing to adapt to changing 
circumstances.
    Ms. Norton. How would you adapt to individuals being able 
to go without background checks and buy .50 caliber military-
style, armor-piercing weapons at gun shows in another 
jurisdiction? How would you prepare for that?
    Ms. Gallegos. We are going to approach that with the same 
kind of threat assessment, planning, coordination, working with 
State and local partners to address exactly that kind of 
emerging threat which can come from that kind of quarter, or 
from any number of quarters.
    When we do threat assessment and we work with State and 
local partners, we are not just looking at particular types of 
weapons or particular types of incidences, we are planning 
across the spectrum of scenarios for the range that could 
include the type of weapons you are describing, or incendiary 
devices, or shoulder mounted.
    Ms. Norton. Well, this is a particular threat that no one 
has had to prepare for, Mrs. Gallegos. Of the threats we have 
had to prepare for, legal permission from the Federal 
Government to buy guns in another jurisdiction that could be 
military-style weapons that could be used against Federal 
officials, is, so far as I know, not a contingency you have had 
to prepare for. Do you have a risk assessment involving that 
yet?
    Ms. Gallegos. Well, I want to be careful when I answer 
that, a specific risk assessment, because my day-to-day 
responsibilities don't involve working with specific risk 
assessments. You notice that my title is Law Enforcement and 
Information Sharing Policy, and my focus is on the types of 
day-to-day coordination partnerships and strategic planning 
that I have been talking about. But I would be happy to, of 
course, go back to the Department and see if we can provide 
some additional information to you on the types----
    Ms. Norton. Well, I appreciate that. And I realize you are 
a policy expert, Ms. Gallegos. I am a Member of the Homeland 
Security, and I have been kept very busy with the Department on 
threat assessments. And I must say, the threat assessments that 
we are most concerned about in this jurisdiction today, cyber 
threats, carry-on nuclear devices, and the rest, lead me to 
think that neither the Department nor anybody else is prepared 
for a new threat from, of all places, military weapons coming 
into the Nation's capital. We hope you won't have to include 
this threat assessment in your arsenal of assessments, which I 
am aware that the Department has taken on and taken on so well.
    I am going to ask Ms. Edwards if she has questions at this 
time.
    Ms. Edwards. Thank you, Madam Chairwoman. I do have a 
couple of questions.
    First, in terms of the line of questioning that you have 
been directing regarding the challenges to D.C.'s gun laws and 
autonomy, I would like to have entered into the record a 
response from Governor Martin O'Malley of Maryland to an 
inquiry by our Maryland delegation regarding the impact on 
Maryland of a change in--the impact of this Ensign amendment 
and the effect on Maryland.
    As I had described earlier, of course, one of the 
challenges is that we face a tremendous fiscal and budget 
crisis just like a lot of States and jurisdictions. We hardly 
have the resources to apply to registering guns for D.C. 
residents; it is just not what we are in the business of doing. 
We are challenged by registering firearms in our own State and 
our local jurisdictions. And it would be a huge burden on 
Maryland to take on this responsibility.
    That aside, for those who believe in not imposing unfunded 
mandates on States, this clearly would be an unfunded mandate 
on the State of Maryland, proposing a tremendous burden on our 
State troopers and our budget.
    For those people who are concerned about silly little 
things like State sovereignty, well, I understand that there 
are those who share the view that they can impose, at will, 
anything on the District of Columbia because they don't view it 
as a sovereign. Maryland is a State, Maryland is a sovereign. 
And we can't have the United States Congress imposing on us the 
requirement to register guns from another jurisdiction.
    And so I would like to have entered into the record a 
letter from the Governor of the State of Maryland, Martin 
O'Malley, expressing our State's serious concerns, and I will 
quote from the letter. ``We have serious concerns with the 
language of Senate amendment 575 and request that you reject 
this proposal if introduced for consideration in House bill 
H.R. 157 and defeat it during a likely conference of the two 
measures.'' And it does go on to state all of the implications 
for Maryland that would really impose on our State sovereignty 
and on our budget. I would like to have that entered into the 
record.
    Ms. Norton. So ordered. And Ms. Edwards, might I say that I 
have spoken with your governor, Governor O'Malley and with 
Governor Tim Kaine. And I am pleased to report here that both 
Governors are strongly opposed to the entire Ensign amendment 
and that, as I understand it, they are writing a joint letter--
in addition to the very well-documented letter that the 
Governor of Maryland, on his own, has already written. I would 
like to have that letter in the record as well, and any 
information we have from these two sovereign States who have 
been drafted into this matter without any consultation with 
anyone in the State or with any Member of the Virginia or 
Maryland delegation. I would like to have any information in 
that regard put in the record so that that infringement, as the 
Member says, we are accustomed to in the District, does not 
begin to infect the two sovereign States that are our neighbors 
and that work so closely with us. So ordered.
    Ms. Edwards. Thank you, Madam Chairwoman.
    And I just have a couple of questions; one to Assistant 
Chief Nichols, a couple of concerns. One, we have a number of 
your police officers who are constituents of mine in the Fourth 
Congressional District in Maryland and have been greatly 
concerned about the Blackmen-Malloy case, the discrimination 
case, those 300 black law enforcement officers of the Capitol 
Police. And I wonder just in terms of your ability to 
coordinate with other jurisdictions, how that impacts the 
morale of the law enforcement officers under your jurisdiction 
and where we see this going so that it can be resolved?
    Mr. Nichols. That is currently before the U.S. Capitol 
Police Board. I know that our attorneys are talking to the 
representatives of the Black Police Officers Association to try 
to find some path forward on that. I think it is the District 
Court was making a ruling about who was actually included in 
the set of that lawsuit.
    But I appreciate your question because it drives to the 
heart of professionalism of the United States Capitol Police. 
Regardless of some of the internal issues that we deal with on 
a day-to-day basis with personnel policies and procedures and 
even some of the concerns that the unions or the Black Police 
Officers Association may have, our officers separate out those 
issues from their professional responsibilities. And I think it 
was evidenced during the inauguration the extraordinary lengths 
that U.S. Capitol Police officers go to ensure that the Capitol 
complex and all those who work and visit here are safe. We are 
able to build upon that level of dedication and integrity to 
coordinate with our partner agencies throughout the region 
also, And we share a very good reputation, as do the other 
agencies that we work with.
    We all have a mutual responsibility here. And I can't 
remember if it was your opening statement or Madam Chair's, but 
there is no one agency that is an island in this city. We all 
have to jointly work together to ensure the safety and security 
of not only people who live and work here, but the millions of 
visitors who come through here every year. And the laws that 
affect us and allow us to do our jobs are important in our 
efforts in that regard.
    So we monitor these types of developments very closely. We 
look at the impact, and then we move forward in a unified 
fashion to ensure that we can meet the constitutional 
requirements that are provided, and also the public safety 
entities and responsibilities we carry every day.
    Ms. Edwards. Well, I thank you for that. And of course I 
greatly appreciate, even as a new Member, the professionalism 
of the Capitol Police. But you should know at least that this 
Member remains really concerned about that outstanding 
litigation, precisely because so many of those officers do live 
in the Fourth Congressional District.
    I would like to say to you as well, you know, and just 
again continue to salute the Capitol Police, and especially the 
memory of John Michael Gibson and Private First Class Jacob 
Joseph Chestnut, who was a resident of Prince George's County 
in Maryland. It speaks to the high quality and caliber of 
service of the Capitol Police. And I would just want to just 
ensure that, as we go forward, that we not only have the 
highest quality and caliber and performance, but that we 
recruit in the most diverse way possible and reward those 
officers for their service.
    And then finally, and I know I am going over my time, Madam 
Chairwoman, just one question for Ms. Gallegos. And the only 
reason that I know to say Gallegos is because I grew up in New 
Mexico. But I have one question for you regarding Homeland 
Security and your coordination efforts because in this region--
and this region poses a different kind of homeland security 
concern. We have so many different law enforcement agencies 
that have responsibility in the region. And so I want to know 
kind of more directly your relationship with the Prince 
George's County police, Montgomery County police, in terms of 
our local law enforcement and the District of Columbia, and how 
often those agencies are pulled together for the purposes of 
coordination, and the role that Homeland Security, 
particularly, plays in that coordination.
    Ms. Gallegos. Representative Edwards, I would be happy to 
provide some additional information for you on that. I don't 
have that level of detail with me today, but I would be happy 
to provide a response after the hearing.
    Ms. Edwards. Thank you very much. And I yield.
    Ms. Norton. Thank you, Ms. Edwards.
    Mr. Perriello.
    Mr. Perriello. Thank you very much, Madam Chair.
    Let me start just by echoing Congresswoman Edwards' 
comments. As a new Member, I have just been incredibly 
impressed by the Capitol Police, the professionalism, the 
handling, particularly under some very, very difficult 
circumstances like the inauguration. So I just want to say, 
from me and my staff, my family that has come to visit, we have 
been incredibly impressed by the job that you do.
    And let me also preface this by saying that I think you 
have made a compelling case that there are many aspects of the 
District that are unique in terms of security threats. I think 
what we are probably interested in doing here is making sure 
that you have the ability and the leeway you need to protect 
us, to protect the city, to protect these national treasures. 
At the same time, for better or for worse, the unique aspects 
of the District also mean you have significant presidential 
values for constitutional rights for other parts of the 
country.
    I certainly come from a part of the Commonwealth of 
Virginia that has very different issues when it comes to gun 
rights and people's use of guns. And I just, for now, want to 
ask two clarifying questions, and then I may want to pick 
things up offline.
    First for you, Assistant Chief, you were saying that when 
you stop someone who possesses a weapon, there is a presumption 
that that person is a threat. Can you say a little bit more 
about that, and about whether that matters whether that is an 
authorized weapon or not, and what you mean by that?
    Mr. Nichols. Well, the way that the gun laws work right now 
within our complex is the only person who can lawfully possess 
a weapon on the street is a law enforcement officer. So anyone 
other than a law enforcement officer who we find to be in 
position of a weapon, we automatically determine them to be a 
threat. Now, it is a sliding scale. There are people who come 
to the city who have a registered firearm and a license to 
carry a firearm in their home districts, they come to the city 
thinking that is legal here. It, in fact, is not.
    So once we do the fielding interview, we will determine if 
they are not a threat, they are just somebody who is 
misinformed, but nevertheless in violation of the law. On the 
other end of the spectrum, you have people who do come here 
with the very intent of carrying a weapon in order to cause 
harm or violate the law. And as Congresswoman Edwards talked 
about, we have suffered the outcome of that when we had the 
lone wolf come up here trying to force their way into the 
United States Capitol building in 1998. Two of our police 
officers were killed.
    Just recently, within the past few months, we have had many 
gun cases where people that cause us concern about what their 
intent really was showed up within our jurisdiction with long 
guns, shotguns, homemade hand grenades, things of that nature.
    Because of our experience, and the fact that we know this 
is a target not only for terrorists, but for people who want to 
come here to seek retribution against the United States 
Government, our officers are trained to be very wary of people 
they run across in the field, whether it is within our primary 
jurisdiction or extended jurisdiction, who are possessing 
firearms because we have to run that investigation rather 
quickly to determine, one, if they are a threat, and two, if it 
is part of a larger threat that is going to be a multi-prong 
attack on the Capitol complex. So it is a difficult position 
for our officers. For our own protection, and the protection of 
people like you and your family that you talked about, we have 
to be very wary and very on guard of people we come into 
contact with up here.
    The way the laws are right now, either if you are in 
possession of a gun, you are a law enforcement officer, or you 
are violating the law. And it is pretty clear for us to move 
forward in that respect.
    If there are efforts to introduce gray areas, then of 
course it is going to be more and more difficult for officers 
to determine rather quickly the means by which somebody is in 
possession of a gun. And it is going to take a lot of 
retraining and a lot more coordinated effort to ensure that we 
don't make an assumption on one end of the spectrum that is 
wrong, or assume that there isn't a threat when there is one, 
if there is, when there isn't. It just complicates the matter 
for us.
    Mr. Perriello. Maybe that is a segue to the Attorney 
General. If you could give some sense--you have talked about 
some about of the District laws that you believe are 
permissible under the Heller decision. Can you give some sense 
of what you think would not be permissible, other than what has 
already been explicitly ruled out in your mind based on Heller?
    Mr. Nickles. I am not quite sure what the Congressman has 
in mind. We have looked at every element of the gun laws that 
we have enacted. We have some lawsuits that have been filed 
that challenge various elements of our gun laws, for example, 
the requirement of training, certain of the preregistration 
requirements.
    But I think, by and large, the lawsuits that have been 
filed accept the fact that the District has a basis in the 
Heller decision reasonably to regulate handguns and who gets 
the handguns and who gets the semi-automatics that are 
permissible.
    The concern I have, Congressman, is with section 210 of the 
Ensign amendment. That is the one that creates the exception to 
Federal anti-trafficking laws only for the Nation's capital, 
which seems to me to be a sort of a contradiction in terms. You 
have got the most unique jurisdiction in the world in terms of 
the monuments and the government officials and the dignitaries 
and the IMF conferences and the World Bank conferences and the 
conferences of the G-7 and the G-20.
    So everybody agrees this is the most unique place in the 
world. And then we are talking about making this most unique 
place in the world the only place in the Nation where residents 
are allowed to purchase a firearm in another State without 
going through some kind of licensed dealer.
    To me, section 210, which also opens up the issue that 
Madam Chairman talked about, the gun show problem, and also as 
Congresswoman Edwards talked about foisted upon Virginia and 
Maryland the issue of registration, or what to do about the 
District residents. It doesn't make sense. And if the Congress 
thought it didn't make sense, the Congress has plenary power 
over the District. So our laws come in front of the Congress.
    It was interesting to me that the date by which Congress 
could have acted to change the laws we enacted was April 1--
April Fools Day. And we had no comment by Congress that any of 
the laws that we had enacted over a long, arduous period of 
negotiation with the community, with the advocates on both 
sides of the issue, we put together what I considered to be a 
very comprehensive statute and regulatory picture which I 
believe will sustain any attack, and Congress lets it go into 
effect for this unique jurisdiction.
    So that is, perhaps, the long answer to a simple question, 
but it poses to me the ultimate irony in the Ensign legislation 
and in section 210; why would you take the most unique place in 
the world and make it a unique place from the standpoint of 
regulation of firearms? I don't understand it.
    Mr. Perriello. I appreciate the passage you read from 
Justice Scalia's decision on that. I am just trying to 
understand in your mind what it is that you believe we could do 
in terms of limiting firearms in D.C. that would be 
unconstitutional, that would be out of bounds for the District, 
that would be inconsistent with the other holdings of Heller.
    Mr. Nickles. Well, I think if we were to take steps that 
effectively impede, prevent, stand in the way unnecessarily of 
the right of a citizen to have and provide self-defense in his 
home, that would be very worrisome to me. And so when we had 
advocates on the one side of gun regulation proposed that we 
really not respond at all to Heller, I was very adamant, as was 
the Council and the Mayor, in saying, now, look, we accept what 
the Supreme Court has done. We are not going to fly in the face 
of what the Supreme Court has said about the second amendment 
right. But at the same time, Justice Scalia said, we don't 
intend in any way to take away the right of your jurisdiction, 
as every State in this country, the right of a jurisdiction 
reasonably to regulate the use of firearms.That is what we have 
done.
    Mr. Perriello. Again, I appreciate all that you all have 
done to try to protect the Capitol and to protect us and for 
being part of this hearing. And I yield back.
    Ms. Norton. Well, I have a number of questions raised in 
part by the questions of my colleagues, very good questions of 
my colleagues.
    Let me ask Ms. Gallegos--see, I am not from the West----
    Ms. Gallegos. Please call me Gabrielle, or Gabby.
    Ms. Norton. You can tell I am a third generation 
Washingtonian.
    Ms. Gallegos, I am going to ask a question because she 
speaks the language of Homeland Security.
    In hearing after hearing in the Committee on Homeland 
Security we have been told that the approach we should be 
looking to protect our Nation, including of course the Nation's 
capital, is a layered security approach, where one would wish 
at every level, level after level, until you were sure, as 
opposed to some great approach that would, in fact, accomplish 
what we are after.
    In your view, is a layered approach to Homeland Security 
most effective in preventing a terrorist attack? And if so, how 
would the elimination of all local gun laws affect a layered 
approach if that layer was eliminated?
    Ms. Gallegos. Well, that is a complicated question. Again, 
I am afraid that my expertise doesn't extend to all of the 
potential types of security planning and policy that goes into 
answering that. And if you would permit, I would like to get 
back to you with a more detailed response at a later time.
    Ms. Norton. I would request within 10 days a response from 
the Department on whether or not in the layered approach--which 
they have virtually invented since 9/11--that approach would be 
facilitated, hurt, helped, enhanced by the elimination of an 
entire layer, local gun laws, there would be left whatever is 
the Federal law that affects everybody. But even the most 
permissive jurisdictions have their own set of gun laws, here 
you would have none. And I understand your role and I very much 
appreciate your testimony, but we are trying to document. And 
you must understand that the leadership of the House and the 
Senate are trying earnestly to discover at this point whether 
there is any effect on homeland security, that for the first 
time the leaders in both Houses are looking very seriously at 
this gun law. And they are aware that the gun law is going to 
become law because we are going to pass the D.C. House Voting 
Rights Act. We are not letting anything stand in the way of 
that. And they have strongly supported it; it is already 
through the Senate. The House was the first to get it through 
last time on a clean rule and a clean bill.
    There is no question in my mind that these leaders are 
going to get this done. And there is also no question in my 
mind that if you have this attached to both bills, it is law. 
And that is why I said in my testimony, don't want the 
recriminations; want to know up front whether or not there is 
any effect of having no layer of local law here.
    Now, Mr. Nickles, this law would deprive the jurisdiction 
of the District of Columbia of all authority over gun laws in 
the District of Columbia. In the public safety hierarchy, where 
does having some say over guns rank in the public safety 
hierarchy of every large city? How important is it? What is the 
biggest threat to public safety in every city?
    Mr. Nickles. I think the Chief has spoken eloquently to the 
fact that guns are at the heart of public safety, and the need 
to regulate guns. The Chief has said many times, guns, drugs 
and gangs. We have been working, and we had a meeting yesterday 
with the Governor of Maryland to talk about how to improve 
coordination with respect to matters of violence because there 
are cross-border issues. But if the principal problems facing 
any municipality, particularly the urban areas, is guns, gangs 
and drugs, you take away the ability of the major police force 
in the city to deal effectively with guns as the elective 
leaders of the city have determined.
    And I am no expert on the layered approach, but I am a 
firsthand viewer of what the Chief and her terrific police 
department do in this community. I sat with the Chief of Police 
in September last year when she sought to explain the problems 
in the House bill at that time.
    Ms. Norton. Which is the same bill as this bill.
    Mr. Nickles. Except for minor differences, it's the same 
bill we are talking about. And it causes the Chief and myself, 
particularly section 210, significant heartburn.
    Ms. Norton. Could I ask Chief Nichols, Chief Morse raised 
an issue that had not been raised before last time, and I will 
ask your view on it. It had to do with officer safety. He spoke 
of the changes that I enumerated in my testimony and the effect 
of the safety on officers of the force here. Would you speak to 
that, please?
    Mr. Nichols. Yes, ma'am. It is pretty much in line with 
what I responded to earlier. As we police the city now on the 
streets, whenever you come in contact with an individual who is 
in possession of a firearm, whether it is through an arrest 
situation or through just merely seeing them on the street in a 
patrol operation, you can safely assume with very limited 
exceptions that, they are either a law enforcement officer or a 
criminal who is unlawfully in possession of that firearm. And 
that allows the officer, the officer who has made the contact 
with the individual, to approach in a very cautious manner and 
protect themselves in that regard because there really is no 
gray area right now.
    The officer can perceive anybody that they see on the 
street carrying a firearm, whether it's a handgun or a long 
gun, as a threat not only to public safety, but to themselves, 
and they take the appropriate precautions to handle that 
situation. It is the way that we have been policing in this 
city for as long as I have been a cop.
    When you generally have people on the street who are 
lawfully in possession of weapons, it starts to gray the area a 
little bit more because the officer will then know that it is 
not as clear cut. And it is a concern that is going to take a 
lot of retraining for our officers to ensure that they are 
approaching the right way and that they understand that there 
may be another added layer when they come in contact with 
somebody.
    Ms. Norton. So would you have to retrain every officer?
    Mr. Nichols. Yes, ma'am. The way that we have been trained 
now is that it is illegal to possess a firearm on the street. 
And no matter how we come in contact with that weapon, whether 
it is search incident to arrest, search of a vehicle, or merely 
somebody that we see in possession of a handgun, if other 
aspects of lawful possession are introduced with regard to 
street operations, then, yes, that is going to take a lot of 
retraining.
    Ms. Norton. So you would have to come to the Congress and 
ask for funds to retrain every officer of the Capitol Police 
force.
    I do want to clarify, with respect to Mr. Nickles, when I 
was talking about depriving the local jurisdiction, leaving no 
layer whatsoever there for Federal police because there is no 
gun laws here, would you describe how gun laws and every other 
law becomes effective?
    Let me give you a law professor's hypothetical. Suppose the 
District of Columbia passed a gun law that the Congress 
disagreed with. Let us forget the question of constitutionality 
for the moment because, as I understand it, Attorney General 
Nickles, there have been 80 court suits brought since Heller 
and not a single gun law has been overturned. So let's just 
assume that the District passes a gun safety law with which the 
Congress disagrees. Is the Congress, under present law, 
powerless to do anything to correct its disagreement with the 
District of Columbia, or must it now do, as this gun amendment 
does, deprive it of all jurisdiction, no matter what the 
circumstances over gun safety laws?
    Mr. Nickles. Oh, absolutely not. The Congress has plenary 
power over the District. And the District cannot enact any law 
until that law lays over in the Congress for 30 legislative 
days when you have a civil law, or 60 legislative days for 
criminal laws, which sometimes, as the Chairwoman knows, could 
mean months. So that the time frame and the ability of Congress 
to say ultimately whether it agrees or disagrees with the gun 
laws is an ultimate weapon by the Congress. If there is some 
part of our gun laws that Congress does not like--putting aside 
the constitutional issue--Congress has plenary power, because 
no laws can become effective until those laws lay over here.
    I might add, Madam Chairwoman, we are in the process of 
submitting and having had hearings on it, an omnibus crime 
bill. With the U.S. Attorney and the Police Department and the 
Attorney General's office, we have spent literally months 
developing an omnibus crime bill that deals with guns, with 
gangs, with drugs, with stalking, with victim protection, and 
many other features. And so to have in the middle of that very 
comprehensive effort in the District to deal with crime, and 
then in the middle of our effort to work with the Governor of 
Maryland and all of his key people who were with us yesterday 
in the Wilson Building, to have the Ensign amendment come in 
sort of in the middle of this when the Congress does have the 
power, ultimately, with respect to our gun laws or any other 
laws, to say no, we don't like that. I am not really clear why 
the Ensign amendment is being pressed at this time.
    Ms. Norton. So, in other words, at best, it is redundant 
because Congress can do whatever it wants to do with the 
District. It could wipe out all the laws of the District of 
Columbia right now, could it not?
    Mr. Nickles. I am afraid to say yes. It makes me feel 
pretty powerless, but the fact is the Congress has plenary 
power over the District. And it is really upon that basis that, 
at least in my view, that Congress has the power to grant 
voting rights to the District because it does have this plenary 
power, and in the past, in many situations, the Congress has 
treated the District as a State.
    Ms. Norton. Could I ask Ms. Edwards, who has another 
question, and then I will come back.
    Ms. Edwards. Thank you, Madam Chairwoman.
    I just have one question that was raised in the message 
that we received from our Governor, and it has to do with the 
data systems integration and communications.
    Assistant Chief Nichols, do you have the capacity now, 
let's say, if Maryland had to register a gun of a resident from 
the District of Columbia and that person somehow ended up here 
on Capitol grounds, to be able to communicate with Maryland? 
And does Maryland then have the ability to go into the data 
systems in the District to know whether somebody has a mental 
health prohibition or a previous conviction that would prohibit 
the purchase or possession of a firearm? Do you have that 
capacity now? Is it fully integrated?
    Mr. Nichols. We do have a number of data systems that we 
interact with local law enforcement and also Federal law 
enforcement on. Whether those specific issues that you raise 
can be obtained through those systems, I would have to go back 
and then give the answer for the record.
    Ms. Edwards. I would be curious to know that.
    And then Mr. Nickles--and you don't have to answer this 
now, and it may require checking and getting back to us--my 
understanding is that if somebody in the District of Columbia 
has a mental health prohibition or they had already registered 
the firearm, as would be required under Ensign, in Maryland and 
then got a conviction, Maryland wouldn't necessarily know that 
it had to revoke that license because the systems are not 
transparent in that kind of way. And so it would be really 
complicated for Maryland or Virginia to do the kind of follow 
up that it has to do with guns that are registered by its own 
residents in the State because we have a State system that 
allows us, if a subsequent conviction comes along or a mental 
health prohibition comes along, we would know and then be able 
to revoke that firearm. We would not necessarily have that 
capacity registering folks in the District of Columbia, nor 
would we have the capacity, I don't believe, to communicate 
that from one law enforcement agency to another law enforcement 
agency. And so it seems to me that, in terms of homeland 
security, this problem really poses a great danger in terms of 
the District even knowing whether someone who had a prohibition 
didn't also still have a gun.
    Mr. Nickles. Let me get back to you on that. I do know that 
one of the nice features of the gun laws that we have enacted, 
it has a very clear standard as to who can register a gun. And 
it is also very important to us that if we find guns later, we 
are able to trace those guns back.
    As to the question of the data systems, I have got people 
behind me that probably know the answer, but why don't we 
confer and get back to you on that?
    Ms. Edwards. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you. Perhaps Chief Nichols or Attorney 
General Nickles can answer this question.
    I think it is the Attorney General who has mentioned the 
Federal anti-trafficking laws. I believe those were passed in 
the 1930's. Why is it that Federal law requires that you 
purchase a gun in your own State and only in your own State and 
not go out of State in order to purchase a gun when we usually 
allow free commerce across States?
    Mr. Nickles. Well, I don't want to speculate, but it seems 
to me commonsensical that if each individual State is doing the 
registration of firearms, it can, A, ensure that people that 
shouldn't have firearms don't get them. And then, if those 
individuals go into Virginia or Maryland, for example, in order 
for that individual to retrieve the gun, he has to go to a 
federally licensed place in the District so that, once again, 
the District and the Federal authorities can keep track of 
those guns.
    We are not dealing chewing gum here. I mean, there seems to 
me to be some basic public interest in knowing where firearms 
are and whether the individual who is receiving a firearm is 
mentally competent has been convicted of a felony, and a 
variety of different pre-registration requirements. This is not 
unique to the District. All other States in this country have 
similar regimes of regulation.
    Ms. Norton. Thank you. Now, you are aware, perhaps, Ms. 
Gallegos, that this Subcommittee is also in the process of 
building a large new compound out in Ward 8 for the Department 
where its headquarters and several of its agencies will be 
located. Are you aware that under this amendment a person who 
is voluntarily committed to St. Elizabeth's mental hospital--
and most people today are voluntarily committed--would be able 
to immediately, upon release from a mental hospital, for 
whatever period of time, without any waiting period, be able to 
buy and keep a gun? And St. Elizabeth's Hospital is right next 
to the planned Department of Homeland Security. Does that give 
you any pause?
    Ms. Gallegos. I was aware that that provision is in this 
amendment. And as we build our facilities at St. Elizabeth's 
Hospital, or St. Elizabeth's facility, we are, of course, going 
to be concerned about the security of that facility as we are 
about a number of the--I think the Federal Protective Service, 
through the Immigration and Customs Enforcement Agency, 
protects somewhere in the neighborhood of 9,000 Federal 
buildings. And of course at all of those buildings we do 
prohibit guns from coming in. And we do that through screening, 
metal detection, of course visual inspection. And we are 
concerned about creating that level of security in all of the 
Federal buildings that we are protecting.
    Ms. Norton. This is a particularly high-security agency, is 
it not?
    Ms. Gallegos. Yes. But of course we take the protection of 
all the Federal workers in all of our Federal buildings very 
seriously.
    Ms. Norton. Well, we are very glad to have your concern. I 
was asking a question about the Department itself and its near 
location to the mental hospital.
    Ms. Gallegos. I presume that we will continue our security 
procedures when we are in that facility.
    Ms. Norton. So you don't have any concern that people could 
get out of St. Elizabeth's and buy a gun immediately.
    Ms. Gallegos. I am certainly concerned about protecting 
Federal buildings, which is our charge, and about protecting 
our facilities.
    Ms. Norton. Let me ask you, Chief. Is it of any concern 
that assault weapons could be legally stored in houses or 
office buildings surrounding the Capitol complex under the 
amendment? Is it of any concern to the Capitol Police?
    Mr. Nichols. Well, again, as you know, we don't comment 
specifically on pending legislation. But speaking in general, 
you were talking earlier about layers of security. The layers 
of security that we use with the Capitol complex is concentric 
rings, where we try to identify threats the furthest distance 
away from the Capitol complex so we can intercept and mitigate 
that threat.
    The availability of stand-off weapons starts to skew that 
ability to identify a threat further away because the longer-
range weapons extend out their actual threat parameters. So any 
time that there is a long gun that is in our proximity, yes, it 
is a concern, just as you get closer in, a handgun becomes more 
of a threat because it is a closer threat-type weapon.
    As you know, the Capitol complex is completely open and 
inviting. And there are times where we don't know that we have 
a threat coming toward us with regard to an armed individual 
until they are actually at our doors. So despite our best 
efforts, any time that there is a stand-off weapon nearby, it 
is a legitimate concern to the United States Capitol Police.
    Ms. Norton. Attorney General Nickles, on page 2of your 
testimony you say the District is certainly not alone in 
requiring a firearm dealer's license, and that 17 States do it 
as well. We note that the gun amendment repeals the requirement 
that licensed dealers keep records of ammunition received into 
the inventory and ammunition sold or transferred. Were you 
referring to that?
    Mr. Nickles. I believe we were. The other provision that I 
would just raise with you, Madam Chairwoman, that really causes 
me also concern is this language where, under the Ensign 
amendment the District would be barred from enacting any law 
that would--let me give you the words, because these are far-
reaching--'' prohibit, constructively prohibit, or unduly 
burden the firearm possession by anyone not otherwise 
prohibited by Federal law.'' And then it goes on to bar the 
District from enacting any laws or regulations that might 
discourage private ownership or use of firearms in a person's 
dwelling or place of business, including regulations that would 
prevent the mentally ill, drug abusers, or domestic violence 
perpetrators from obtaining and possessing firearms. So this 
bill is a many splendored thing.
    Ms. Norton. Yes, I just wanted to get your view of that on 
the record, Attorney General Nickles.
    I want to ask Chief Nichols a question about something that 
is in Attorney General Nickles' testimony. He talks about the 
assault weapon ban. And of course it is now up to the States, 
and that has been his testimony. The ATF has described the 
assault weapons that we are talking about as large capacity, 
semi-automatic firearms designed for rapid fire, combat use. 
Most are patterned after machine guns used by military forces. 
Those are guns which could be possessed and stockpiled in the 
District of Columbia.
    Would you describe any concern you have that such 
stockpiles of guns used, as the ATF says, by military forces 
usually, what effect would that have on protecting the 
jurisdiction under your control?
    Mr. Nichols. Well, the concern is as it has always been, 
that those types of weapons, or any weapons falls into the 
wrong hands and then is used to further a criminal act or an 
assault or an attack. So it is the availability of those types 
of weapons, by whatever means they are obtained by people who 
want to come up to the Capitol complex within our jurisdiction 
and do harm, that is a significant concern. And as I said 
earlier, we have had instances within the past 18 months where 
we have had people come up here with assault-type weapons and 
we have been able to intercept them and arrest them.
    Ms. Norton. One final question. And this really flows from 
the testimony of Chief Lanier in--I guess it was September. And 
I would like the view of all three of you on this testimony 
from the Chief.
    '' If the gun bill, the very one before us now, were 
passed, it would be far more difficult for the Metropolitan 
Police Department and Federal law enforcement agencies in the 
District of Columbia to ensure the safety and security of the 
Nation's capital.''
    Do any or all of you share those concerns?
    Mr. Nickles. I would never disagree with the Chief of 
Police, who I think is the city's foremost expert on what 
affects the public safety and security of this city. She has 
been in the police department for some 20 years, I think. She 
is a woman that has seen every facet of public safety matters 
in the city. She is a leader, and she is doing a great job. And 
so when she says that, she means it. I support it.
    Ms. Norton. Attorney General Nickles, as I understand it, 
Chief Lanier established the city's own Department of Homeland 
Security, was its first officer, and is the primary contact 
with the Federal law enforcement and security network for the 
Nation's capital; is that correct?
    Mr. Nickles. That is correct. It is one of her many 
distinctions.
    Ms. Norton. Thank you, Attorney General Nickles.
    Chief Nichols.
    Mr. Nichols. I have known Chief Lanier for a number of 
years and I have watched her as Chief of the Metropolitan 
Police Department. And I would agree with the comment she made. 
I think that any professional law enforcement officer would 
concur with her views on that matter.
    Ms. Norton. Thank you, Chief Nichols.
    Ms. Gallegos.
    Ms. Gallegos. At DHS, we respect Chief Lanier enormously, 
of course. And as I mentioned earlier before, we regard the 
views of the State and local partners that we work with as 
extremely important. And they have enormous input into how we 
formulate our policy and how we go forward.
    Ms. Norton. Well, I want to thank all three of you, 
Attorney General Nickles, Chief Nichols, and Ms. Gallegos, for 
really very, very important testimony for this Subcommittee. It 
is important to hear from those who are on the front line in 
every respect. And I don't think we could have had a panel that 
was more informative or more indispensable to our understanding 
of how we should go forward.
    Thank you again, all three of you.
    Chief Nichols is going to stay for the next panel. And 
could I ask the second panel to come up, in addition to the 
chief; Mr. Jeff Delinski, Deputy Chief Special Operations 
Bureau, Washington Metropolitan Area Transit Authority; Major 
General Errol Schwartz, Commanding General, D.C. National 
Guard. And because my good friend and colleague has another 
important engagement and must leave before the next panel, I am 
going to ask Mr. Vernon Herron, who is the Deputy Chief 
Administrative Officer of Public Safety and Director of 
Homeland Security for Prince George's County, if he would come 
forward in this panel. And instead of my asking the first 
questions, I am going to ask that Representative Edwards ask 
the first questions of this panel.
    Perhaps we should proceed with Mr. Herron in case Ms. 
Edwards has to leave early.

TESTIMONY OF DANIEL R. NICHOLS, ASSISTANT CHIEF, UNITED STATES 
CAPITOL POLICE DEPARTMENT; JEFF DELINSKI, DEPUTY CHIEF SPECIAL 
    OPERATIONS BUREAU, WASHINGTON METROPOLITAN AREA TRANSIT 
AUTHORITY; MAJOR GENERAL ERROL R. SCHWARTZ, COMMANDING GENERAL, 
DISTRICT OF COLUMBIA NATIONAL GUARD; AND VERNON HERRON, DEPUTY 
  CHIEF ADMINISTRATIVE OFFICER FOR PUBLIC SAFETY/DIRECTOR OF 
   HOMELAND SECURITY, OFFICE OF THE COUNTY EXECUTIVE, PRINCE 
                        GEORGE'S COUNTY

    Mr. Herron. Good morning, Chairwoman Norton. Thank you for 
allowing me to be here today. I am Vernon Herron, Deputy Chief 
Administrative Officer for Public Safety, and Director of 
Homeland Security for Prince George's County, Maryland.
    I appear before you today on behalf of one of the largest 
counties in the National Capital Region. But before I begin, I 
also would like to take this time to thank Congresswoman Donna 
Edwards for her leadership in the critical issue of National 
Capital Region public safety, and for recommending that I 
appear before you today.
    If time permits, I would like to offer testimony on the 
Ensign legislation.
    First, I want to take a moment to recall that Prince 
George's County has testified on this issue before. In July of 
2006, Prince George's County Sheriff Michael Jackson testified 
before the House Energy and Commerce Committee on H.R. 5785, 
the Warning, Alert and Response Network Act. In that testimony, 
Sheriff Jackson explained that warning the public of an 
impending disaster is a good first step, but not nearly enough 
to address the total reality of public safety in response to a 
large-scale disaster. We are pleased this hearing goes further 
than debating how we warn the public and discusses how we can 
lead and coordinate masses of people to safety.
    Prince George's County, Maryland, is located in the heart 
of the Baltimore-Washington corridor. The county borders 
Washington, D.C., and is just 37 miles south of the City of 
Baltimore. The county's population exceeds 820,000, with a 
daily work population of well over 1 million people.
    Covering an area of close to 500 square miles, the county 
is home to many businesses, as well as State and Federal 
agencies. Some of these Federal agencies include NASA's Goddard 
Space Flight Center, Andrews Air Force Base, U.S. Department of 
Agriculture's Beltville facility, a Federal Records Center, a 
large Internal Revenue Service office complex, and the National 
Oceanic Atmospheric Administration Center for Weather and 
Climate Prediction. Additionally, a large portion of the 
region's Metro system and Interstate 95 pass through Prince 
George's County.
    Fortunately, for most communities in America, the threat of 
terrorism remains just that, a threat. However, the United 
States has experienced several acts of terrorism and widespread 
natural disasters which caused devastation and catastrophe. And 
9/11 was an example of this devastation and catastrophe for New 
York, the National Capital Region, and the entire United 
States. Therefore, Prince George's County is in a prime 
position to offer perspectives on how to address the need, 
impact, and practicality for orchestrating large-scale public 
safety response.
    Coordinated planning across the National Capital Region 
will greatly assist the utilization of limited resources 
available to support evacuation and sheltering of residents, 
citizens, and visitors to the National Capital Region. Actual 
emergencies are inherently unstable and consist of rapidly 
changing events whose outcome may be difficult, if not 
impossible, to predict.
    Resource sharing will be necessary in order to ensure the 
region can efficiently manage a major evacuation or sheltering 
event. Prince George's County works closely with the Maryland 
Emergency Management Agency and the Federal Emergency 
Management Agency to ensure all resources needed are being 
utilized in the most efficient and effective manner.
    Locally, we have executed MOUs with the Board of Education 
to provide emergency access to the use of 260 public schools 
located throughout the county. Although there is adequate 
number of public schools to shelter thousands of citizens, we 
do not have enough resources to open every school, or multiple 
schools, simultaneously and also handle our daily 
responsibilities.
    In the event that multiple shelters would be needed to 
house large numbers of citizens for an extended period, we have 
preselected two mega shelters, Ritchie Coliseum in the northern 
portion of the county and Show Place Arena in the southern 
portion of the county. Both are capable of sheltering several 
hundred people.
    Prince George's County has also pre-stocked mobile caches 
consisting of cots, blankets, pillows and personal hygiene kits 
ready for transport to any shelter. For larger shelter needs, 
we have pre-positioned FEMA tractor trailers loaded with 
emergency shelter supplies ready to activate.
    Having immediate access to emergency supplies enables 
Prince George's County to mitigate, respond to, and recover 
from disastrous events. Disasters require coordination between 
Public Safety departments, our Health and Human Services 
departments, as well as the other emergency support function 
agencies. Having these departments train and exercise together 
ensures that social service support and agency collaboration is 
available to assist during this trying time.
    In the event a full evacuation of a county is necessary, 
the county's transportation department has access to traffic 
cameras located at major traffic intersections. Using these 
cameras can alter the time of the traffic light to reduce 
gridlock and facilitate smooth traffic flow.
    The experiences from past incidents reveal that vehicle 
evacuation requires a unified effort, and this will be required 
for the National Capital Region. Region coordination is 
paramount in any effective response and recovery plan. To 
facilitate and effect a recovery plan, the National Capital 
Region has developed a regional video conference system. This 
video conference system uses its own data network lines which 
provide a direct link to every emergency operation center 
throughout the National Capital Region. The ability for senior 
officials from each jurisdiction to directly reach out and 
communicate with their neighbor in the National Capital Region 
will not only enhance the recovery process, but expedite the 
use of resource sharing and mutual aid.
    The Metropolitan Washington Council of Governments, also 
known as COG, has played a major role in fostering regional 
communications. Through COG, senior officials and public safety 
chiefs and directors of each emergency support function meet 
regularly to discuss issues and concerns that greatly impact 
jurisdictions' ability to coordinate, communicate, and 
collaborate during emergencies and disasters.
    Prince George's County communicates directly with MEMA 
during any major event. MEMA is advised of the event and placed 
on alert that mutual aid may be required.
    Prince George's County also depends on several Federal 
funding mechanisms to support the county's operations. Those 
mechanisms include the Urban Area Security Initiative, COPS Law 
Enforcement Technology Program, the Byrne Memorial Justice 
Assistance Grants, the Byrne Discretionary Grants, and the 
American Recovery Reinvestment Act funds. These funding streams 
are critical to our continued ability to deliver public safety 
services and response capabilities.
    Some of the grants require a match dollar amount for the 
jurisdictions. For example, the Regional Catastrophic 
Preparedness Grant program lies dormant due to the fact that 
jurisdictions cannot provide the 20 to 25 percent grant match. 
This grant requirement cripples the ability of the jurisdiction 
to obtain the available funding, especially during this 
difficult economic time.
    Also, the fiscal year 2010 House Budget resolution 
decreases the public safety function authority by $5 billion, 
while increasing the outlay by only $1 billion. This 
discrepancy gives us pause, as we are not able to provide as 
much public safety response to the National Capital Region, 
with cuts to important programs such as the ones I listed 
above.
    In examining the state of operations today, we would make 
the following recommendations:
    First and furthermore, we must keep UASI whole and urge a 
fiscal year 2010 budget to not be set below $900 million;
    Strive for greater coordination and communication between 
local governments and FEMA, including conducting of unified NCR 
drills and exercises;
    Establish clear and efficient report instructions between 
local governments, FEMA, and the Executive Office of the 
President;
    Establish mechanisms for emergency expenditure 
reimbursement.If local governments are going to assist Federal 
emergency response activities, there needs to be a clear path 
which those local governments can seek reimbursement for those 
costs.
    Hurricane Isabel, 9/11, Hurricane Katrina, and the massive 
crowds of this past inauguration, have all taught us valuable 
lessons regarding large-scale public safety response. However, 
if we are to move forward with the entire National Capital 
Region en-sync, then more coordination will need to be 
established and critical Federal support cannot be stripped 
away.
    Are all of our local governments fully interoperable within 
themselves? And are all jurisdictions of the NCR? Is there a 
coordinated National Capital Region plan for FEMA? And are all 
local government entities completely versed with this plan?
    These are the questions we should ask moving forward. 
Prince George's County would continue to partner with the NCR 
to make our country safe.
    Each day we want to be able to inform our citizens that we 
are better prepared today than we were yesterday. I want to 
thank the Subcommittee for calling this hearing today and the 
Chairwoman for allowing us to speak on this important matter.
    I look forward to answering any questions you may have.
    Ms. Norton. Thank you, Mr. Herron.
    Let's move to, Major General Schwartz, D.C. National Guard.
    General Schwartz. Thank you, Madam Chairwoman and Members 
of this Committee for the opportunity to testify in front of 
you today.
    I have submitted my testimony for the record, but please 
allow me to make some highlighting remarks concerning the 
District of Columbia National Guard and their contribution to 
the National Capital Region.
    I have been a capital guardian now for 32 years, and we 
continue to provide excellent support to the city. The District 
of Columbia National Guard consists of the Air National Guard 
and the Army National Guard, and we are housed within the 
District of Columbia, at Andrews Air Force Base and Fort 
Belvoir, Virginia. These installations outside of the District 
of Columbia provide us the support that we would need to 
perform missions in the District such as our air assets, our 
schoolhouses and other important venues.
    The District of Columbia National Guard has a Federal and a 
District mission. It does not limit us to the way we perform 
our duties from the limited actions during a nonemergency all 
the way to martial law, where we can support the District.
    I would like to emphasize the primary role of the District 
of Columbia National Guard, and let you know that it is in 
support of local authorities; we will only respond based upon 
the requests of local authorities.
    The District of Columbia National Guard is like no other 
National Guard in the Nation. The 53 States and Territories 
have a Governor that they report to as their commander in 
chief. The District of Columbia's commander in chief is the 
President of the United States. He has delegated that 
responsibility through the Secretary of Defense, to the 
Secretary of the Army who has oversight for all local missions.
    The Secretary of the Air Force also has oversight over our 
air assets. We provide excellent air support to Congress by 
housing three C-40 aircraft out of Andrews Air Force Base to 
move the congressional delegations around, two C-38 jets and 
other support equipment.
    The District of Columbia National Guard also performs its 
Federal mission, that is, supporting the warfight, Army or air, 
no matter what part of the world it is.
    My responsibility is to make sure that the District of 
Columbia National Guard can rapidly respond to any homeland 
initiative. The Office of the Mayor will contact the Guard, I 
will do the necessary coordinations with senior officials about 
my level to make sure that the District of Columbia gets all it 
needs in a very short period of time. We support 16 ESFs from 
the response plan, and that is transportation, communication, 
mass care, search and rescue, all-in hazards response, 
agriculture, natural resources, public safety and security. The 
District has added a 16th ESF for donation and volunteer 
management which--we are supporting them with our field 
kitchens and other resources that they may need from the Guard.
    We are working very closely with the District of Columbia 
Homeland Security Emergency Management Agency and other 
agencies within the FEMA Region 3 area. We are housing the FEMA 
Region trailer and the American Red Cross trailer in the 
parking lots of our armory because we envision the armory with 
its 58,000-square-foot capacity can house--can be a shelter in 
case of an emergency here in the District, like we did for 
Hurricane Katrina where we housed several individuals who came 
in from Louisiana.
    We have the ability to build capacity through our 
partnerships in the region. The Maryland National Guard, 
Virginia National Guard, Pennsylvania, Delaware and West 
Virginia offer support to the District of Columbia when needed. 
An example of that support, which stretches beyond those 
States, is our support to the Presidential Inauguration in 
January, where 30 States and one Territory provided over 7,000 
troops to the District. Our objective is to remain in the 
background, but to make sure that the events are safe and 
secure.
    In our capacities from Fort Belvoir, we have just received 
new UH-72 helicopters for medevac reasons. We are picking up an 
additional three helicopters in a week or so, and we will be 
using those in case of local emergencies. I yield back my time, 
Madam Chair, and I will be happy to answer any of your 
questions at the end.
    Ms. Norton. Thank you, General Schwartz.
    Mr. Delinski.
    Mr. Delinski. Good morning. And thank you, Chairwoman 
Norton, for inviting me to testify on behalf of Washington 
Metropolitan Area Transit Authority.
    My name is Jeff Delinski. I am a Deputy Chief of the Metro 
Transit Police. The Washington Metropolitan Area Transit 
Authority, otherwise known as WMATA, or Metro, is a far-
reaching system, serving 3.5 million people living in an area 
of roughly 1,500 square miles. We provide, on average, 1.2 
million rides on weekdays, making WMATA an important 
contributor to the health and vitality of the regional economy.
    WMATA has a history of providing emergency response 
training and outreach to our regional public safety partners. 
WMATA opened the Carmen E. Turner Training Facility in 2002, a 
first-of-its-kind facility in the United States dedicated to 
transit. The facility includes a 260-foot tunnel, two Metro 
railcars, a simulated electrified third rail for mock fire and 
rescue exercises, and a passenger rail emergency evacuation 
stimulator. Since its opening, nearly 15,000 people have been 
trained at this facility, which has earned a national 
reputation.
    In 2004, the Metro Transit Police launched a training 
initiative entitled Managing Metro Emergencies. During a 2-year 
period this course provided over 5,000 regional law 
enforcement, fire and rescue, Department of Transportation and 
WMATA operations personnel enhanced training for mitigating, 
evacuating, transporting and recovering from a major service 
disruption in our system.
    WMATA has recently intensified its focus on emergency 
management activities by creating an Office of Emergency 
Management. In December of 2008, Mr. Peter LaPorte was hired to 
oversee this new office and has a direct report to Metro's 
Chief of Police. With the recommitment of six internal staff 
and the hiring of five personnel, Mr. LaPorte has created a 
team that has over 200 years of transit-based incident response 
and emergency management experience.
    The Office of Emergency Management will oversee a new 
training initiative involving the delivery of incident command 
system training to an estimated 8,000 Metro employees. Funded 
through the Department of Homeland Security's Transit Security 
Grant Program and the regional Urban Area Security Initiative 
funds, this program will raise awareness of security-related 
issues and instruct operational employees to implement the 
proper response procedures and command system structure during 
the initial and developing phases of a Metro-specific incident 
or emergency.
    Above all, partnerships with first responders and regional 
stakeholders are the foundation of effective emergency 
management. WMATA would not be able to manage emergencies 
without capitalizing on the strengths of our partnering 
agencies. Continuance of frequent training and exercises as 
well as ongoing involvement with the Metropolitan Washington 
Council of Governments are the primary ways for building and 
improving our relationships with external agencies.
    WMATA is critically tied to the success of the numerous 
special events that take place in this region. The most recent 
of these large-scale special events was the 2009 Presidential 
Inauguration, which resulted in the largest crowd served in 
WMATA's history, providing over 1.5 million individual trips on 
both bus and rail. The success on Inauguration Day is proof not 
only of WMATA's ability to work within the region, but the 
region's propensity to work together.
    When an unplanned incident does occur in the National 
Capital Region, it is our responsibility to ensure customer 
safety, minimize the delay and get people moving again. WMATA's 
actions on September 11, 2001, provides a good example of our 
ability to move large numbers of people during a regional 
emergency.
    However, it must be said that while WMATA is willing and 
prepared to operate in less than ideal circumstances, we do 
have limits in our capacity to move passengers. Even in the 
best conditions, the region always faces traffic management 
challenges. To address this, WMATA in conjunction with its 
regional partners has been active in the development of the 
Metropolitan Area Transportation Operations Coordination 
program, otherwise known as MATOC. MATOC is an area-wide 
situational awareness effort that enhances coordination between 
the region's transportation providers.
    Thanks to funds appropriated by the Federal Government that 
make emergency management a priority, WMATA and the region have 
done a great job dealing with and responding to emergencies and 
planning for events. Continued investment in emergency 
management initiatives such as proper equipment, training 
efforts, planned processes, response measures, recovery 
protocols and overall prevention techniques is imperative for 
enhancing the National Capital Region's mobility, safety and 
quality of life.
    The men and women of WMATA will continue to strengthen our 
capabilities and relationships with our local, regional and 
Federal partners to ensure a safer, more secure and better 
prepared region. Thank you.
    Ms. Norton. Thank you, Mr. Delinski.
    Mr. Nichols, do you have additional statement at this time?
    Mr. Nichols. The only thing I would like to add, ma'am--
obviously, I have already submitted a statement for the record, 
but one thing I would like to highlight is, you will hear today 
in the previous panel and this panel the need to coordinate and 
share resources within the Washington metropolitan area. There 
is no one agency that is well suited to work in a unilateral 
manner to handle the types of emergencies that occur in 
Washington or could potentially occur in Washington. And we 
have seen that, even something with the evacuation of the Mall 
to coordination for the Inauguration and the events on 9/11.
    One of the priorities of Chief Morse, myself and Gloria 
Jarmon, our CAO, has is to make sure that the United States 
Capitol Police are able to obtain a new radio system that 
allows us to be a full partner with interoperability. The 
requirement of the agencies to have plans is fine, but the 
lifeblood of the agencies in this region to coordinate is our 
ability to communicate with each other. And when you have a key 
partner who has limited interoperable capabilities to talk to 
the people who are sitting at this table--seated at this table, 
certainly it causes a concern.
    We are working very closely with U.S. Capitol Police Board 
and the Committees of jurisdiction to make sure that we have 
the authority and the appropriations to obtain this system, and 
to make sure that we can fully integrate with the Washington 
metropolitan area law enforcement public safety agencies should 
there be a major situation develop that requires an evacuation 
of the area or an event that causes us to bring resources into 
our jurisdiction so we can communicate and coordinate those 
rescue and law enforcement activities.
    Ms. Norton. Thank you, Mr. Nichols.
    Let me understand your testimony. Your radio system is not 
now fully integrated with even the D.C.--the Metropolitan 
Police Department, which is the largest police department in 
the region; is that so?
    Mr. Nichols. We have limited interoperability with the 
Metropolitan Police Department, but we don't have full 
interoperability. When we bring some of our other partners, who 
are seated at the table here, online, we have limited 
interoperability.
    The other problem that we have with our current system 
radio system is, it is not encrypted, so that when we are 
handling an emergency situation, everybody's little brother 
with a scanner can listen to what we are doing and that, 
therefore, compromises our operations.
    Ms. Norton. I am going to go now to my good friend, 
Representative Edwards, for the first series of questions. I 
just wanted to make sure I understood what you were saying. 
This testimony is that, even as we speak, the Capitol Police 
are not fully interoperable within the region or even with the 
D.C. Police Department located right here.
    Ms. Edwards.
    Ms. Edwards. Well, thank you, Madam Chairwoman. And also 
thank you for enabling Mr. Herron to come to this panel as I 
have to depart.
    It is exactly this point of operability of systems that I 
wanted to focus on. So I appreciate, Assistant Chief Nichols, 
your raising that. And I want to direct this question also to 
Mr. Herron, because my understanding is that the Prince 
George's County Police Department also has a radio 
communications operability concern and deficit. The Montgomery 
County Police Department also has an interoperability problem, 
in addition to the Capitol Police and the District of Columbia 
police.
    And I am not sure, Mr. Delinski, perhaps you can tell me 
whether WMATA suffers the same deficit. Because this is a huge 
concern.
    Here we are in a region, and our major law enforcement 
agencies have limited capacity in an emergency situation to 
communicate with each other and to do it in a secure fashion. 
This is perhaps--I mean, this is a tremendous deficit for one 
of the most significant regions in the country. And I think 
that as we look to--and this is an authorizing Committee and 
not an appropriating Committee. But I would say to my 
colleagues that as we go forward, this is a huge deficit that 
needs to be cleared up. And it can't go any longer.
    We are, perhaps, just lucky that we haven't had the kind of 
emergency event that would require us to draw on our 
communications capacity and then suffer for that deficit.
    And so I appreciate, Mr. Herron, first, your comments about 
Prince George's County's interoperability deficit.
    Mr. Herron. Yes, ma'am.
    If an emergency occurred today, Prince George's County's 
first responders would not be able to seamlessly communicate 
with partners in the National Capital Region.
    As you know, during the 9/11 attacks, our first responders 
responded to the Pentagon and had to be handing out radios so 
we could communicate with those first responders.
    We recently purchased a new radio system to replace our 
existing 40-year-old radio system. We are hopeful to be online 
with that system within the next 15 months. It is the latest 
and the greatest encryption, and we will be able to communicate 
effectively with our partners in the National Capital Region.
    Ms. Edwards. Mr. Delinski.
    Mr. Delinski. I share your concerns with interoperability 
as well. It is certainly a problem that has been challenging 
the Metro Transit Police Department.
    As you know, we operate in all three major jurisdictions 
here and communicate with all local police departments. We have 
some limited capacity to do so, Metropolitan Police, for one, 
on a limited basis and U.S. Park Police come to mind.
    However, this issue has also been brought up through the 
Council of Governments here in Washington, D.C., and using 
Urban Area Security Initiative funds, we have purchased two 
thousand radios that obviously do communicate with each other; 
and they are in storage caches strategically placed throughout 
the region. So if there is a major event, we do have that 
option of pulling out those two thousand radios and 
distributing them to the first responders on the scene of a 
major incident.
    So we have that option while we wait for technology to be 
able to bring our radio systems together.
    Ms. Edwards. Major General Schwartz, can you describe your 
communications capacity with the law enforcement agencies and 
other first responders in the region?
    General Schwartz. Yes, ma'am. Thank you for the question.
    First of all, let me talk about the framework in which we 
communicate. The Joint Operation Center in the District of 
Columbia is tied to the D.C. Emergency Management Agency 
through several communications mechanisms, radio CB being one 
of those, and radios if we have to be deployed to the streets. 
It further is tied to other EOCs or JOCs within the region, 
within the FEMA Region 3. So we have a 24/7 capability to 
communicate to our Joint Operation Centers within this region.
    If we are deployed to the streets to assist the 
Metropolitan Police Department or the Park Police or whoever 
requires our service, we are then issued land mobile radios, or 
handhelds, to communicate back to our JOC and then out to 
different regions so that they can report back what is going 
on.
    So because we are not on the streets 24/7, the pressures 
that the law enforcement agencies may feel are not realized by 
the Guard.
    Ms. Edwards. Thank you.
    And then finally, Mr. Herron, what would be the cost for a 
fully interoperable communications system for Prince George's 
County in this really critical metropolitan region?
    Mr. Herron. The cost is $65 million, and as I indicated, we 
did sign a contract with a vendor. We are moving forward with 
the placement of the towers and the testing and so forth.
    And I must say that there have been--the Byrne Grant 
accounts and UAC's funding has helped us facilitate the 
purchase of this equipment. And hopefully within the next 15 
months, barring any other issues, we will be able to go live 
with this radio system.
    Ms. Edwards. Thank you.
    And then lastly, before I have to depart, my other question 
was also about medical emergency services. I have been really 
concerned that at a time when we need to step up and think 
about our regional medical emergency services and how we would 
handle a disaster, we are seeing--for example, at Andrews Air 
Force Base, Major General Schwartz, where some of your units 
are supported--Malcolm Grow Medical Center will be declining 
actually in its service, in its medical services at that 
facility.
    Prince George's Hospital Center is under great strain, even 
though it has the region's trauma unit there. And I worry about 
the capacity of then Washington--and we will hear from 
Washington Hospital Center and the American Red Cross later on 
about our capacity to deliver the kind of medical emergency 
services that we need, especially outside of the District of 
Columbia, presuming an event that might require movement of 
great masses of people out into the suburbs and particularly 
the southern suburbs of Prince George's County that are more 
adjacent to the Capitol Complex.
    And so I wonder, Mr. Herron, if you--because I am looking 
right now at how we actually might support a much more regional 
approach on medical service delivery for the purposes of 
homeland security.
    Mr. Herron. Yes, ma'am.
    In the National Capital Region we have been working 
together for the past couple years to deal with the capacity in 
the hospitals, our surge capacity, so to speak. We rely heavily 
on MOUs to support one another, and our hospitals have these 
MOUs in place as well.
    We have purchased several mobile medical buses to transport 
large numbers of victims to hospitals. We are not at the place 
where we really need to be--to address a large catastrophe, so 
to speak. We are moving in the right direction, but there is 
plenty of work to be done.
    Ms. Edwards. Thank you.
    Madam Chairwoman, I yield. And I look forward to both 
reading and looking at the testimony of the remainder of this 
panel and the subsequent one. And I appreciate your enabling me 
to ask this line of questions.
    And thank you all for your presence here today. Thank you.
    Mr. Herron. Thank you.
    Ms. Norton. Thank you, Congresswoman Edwards. We are very 
glad you live in the region so that even when Congress is 
dismissed, you are willing to travel from Prince George's to be 
able to offer the very, very important and helpful comments and 
questions you have offered this afternoon.
    Let me follow up on the Congresswoman's questions on 
interoperability because it may involve a real-life 
circumstance. That involves the enforcement--what we understand 
to be a multi-law-enforcement approach to events like the 
Inauguration.
    Now, there has been a report issued thus far, and I have 
indicated that we are not prepared until the GAO report is 
issued to go very deeply, because we haven't had an independent 
report on what happened. But we do know from constituents 
around the country that there were people who could not get out 
of the Third Street Tunnel. And some have identified this as 
perhaps the most important, if not the only, homeland security 
issue that arose during what was an extraordinarily successful 
event in other ways. And yet there were perhaps hundreds of 
people who were told to make their way by walking through the 
Third Street Tunnel; they did and could not get out.
    I am wondering if this was a question of interoperability, 
whether any of you participated in communication with one 
another so that these people who, we are told, were not even 
told why they were being held.
    Did the Metropolitan Police sergeant, did the Capitol 
Police know about this? Did Metro? Did you, General Schwartz? 
Did you, Mr. Herron? How did this occur? And was there any 
communication among the agencies who appear to have coordinated 
so well in other regards to the Inauguration?
    Mr. Nichols. I can probably be in the best position to 
answer that right now.
    There was a joint report that was done by the agencies that 
were involved in the planning of the Inauguration that 
addressed this and some of the other issues we found, which 
turned out to be rather significant challenges with regard to 
the security plan and the balance and security plan with the 
level of access that we wanted to provide people to the various 
venues in the city.
    Essentially, everything was compounded by the fact that 
there was an unprecedented, almost 2 million people in the 
city. Since that had never been experienced before, we didn't 
really have a historical perspective on how that would strain 
infrastructure, how that would test the communications 
capabilities of the law enforcement public safety agencies, and 
just generally the security plans that we put in place that 
day.
    I will be happy to send the report over to you if you 
haven't had a chance to see it.
    Ms. Norton. Actually, I am trying to find out from all four 
of you whether you had any communication during the time that 
people were in the Third Street Tunnel. I am trying to find out 
whether interoperability or the communication system was partly 
at fault here.
    Did any of you know that there were people--I will go down. 
You knew, Mr. Nichols?
    Mr. Nichols. We knew that there were people in the 
southbound tube of the Third Street Tunnel because that was a 
designated pedestrian route. The command level positions at the 
various multiagency command centers did not know that there 
were people in the northbound tube. The northbound tube was 
never intended for pedestrian use.
    Ms. Norton. How did they get in there?
    Mr. Nichols. Officers on the ground level, in order to 
overcome crowding challenges that were taking place in the 
northwest sector of the city, directed people down there to 
relieve pressure.
    Ms. Norton. See, this is interesting because this is the 
kind of unplanned circumstance where the officer on the ground 
has to make a decision. And actually, if you think about it, it 
would seem to be a good kind of on-the-ground decision, but you 
would expect it to be made--the notion that you are getting a 
lot of crowding. Look, here is this tunnel that is closed. It 
won't have vehicular traffic. Let's send them through this 
tunnel. It makes perfect sense as long as everybody knows it.
    Was the failure of communication related at all to 
interoperability?
    Mr. Nichols. I think--yes, I believe that that was one of 
the factors. We had a multiagency command center going on, but 
in the multiagency command center, what we are really doing is 
listening to about 15 or 20 or maybe even more independent 
radio transmissions from the independent agencies.
    Ms. Norton. Including, for example, anybody can get on that 
now because you are doing--you are tuning into other systems 
rather than having your own system.
    Mr. Nichols. That is correct. So there was no one radio 
system you could monitor to get a global view of what was going 
on in the city that day.
    Conversely, should there have been a major situation 
develop, the same would have been true. We would have had to 
listen to all these multitude of different agencies' 
transmissions in order to coordinate our activities and tie 
operations together.
    Ms. Norton. Including, for example, Mr. Nichols, if 
somebody, you know, these incidents that we had here; and the 
one which is most indelibly in our minds, of course, is the 
incident that occurred here in the Capitol.
    Here you had the tunnel open. You had millions of people 
here, almost none of them with real tickets. Now, if among them 
there had been someone with a military-style weapon who decided 
to open fire, what would have been the consequence there? When 
would you have known about it? How would that have been 
handled?
    Mr. Nichols. Well, we had contingency plans in place to 
handle any number of situations that could occur, including an 
active shooter. We actually had table-top exercises on how 
these various agencies would respond, depending on whose 
jurisdiction the event was taking place in at any given time.
    But again, the potential for something like that to occur 
occurs every day. It is compounded exponentially when you have 
large crowds at a national secure event like that where you 
have instant media attention of what is going on.
    Ms. Norton. And, of course, it would be compounded if, in 
fact, there was free access to military-style weapons which 
would make it much, much easier to mow down people in such a 
crowd if you happen to be either a crazy person or a person 
intent upon doing harm.
    Mr. Nichols. And that is an important point because, 
obviously, our focus is on an enduring constitutional 
government and the protection of the leadership of the United 
States, because everybody was outside of the West Front of the 
Capitol. You had the entire top level of the government in one 
place at one time. That is certainly a significant security 
concern.
    But you can't discount the fact that there doesn't 
necessarily have to be an attack upon that area in order to 
completely disrupt and overtake the inaugural activities of 
that day. And we were very cognizant of that. We always are.
    The agencies that were involved in the Inauguration have a 
constitutional requirement to make sure that the President is 
sworn in at noon on the 20th, like the Constitution says; and 
anything that has the potential of disrupting that, whether it 
is an active shooter on the Mall or something occurring here on 
the Capitol grounds, we have to guard against that.
    And as the threats proliferate through access to weapons or 
whatever, the difficulty of making sure that we hit that 
constitutional requirement for the Inauguration is even more 
difficult.
    Ms. Norton. So would you be as alert today in looking for 
the lone gunman, single shooter as looking for somebody 
carrying a nuclear device, assuming that was possible, into 
this area?
    Mr. Nichols. Yes, ma'am. We run a spectrum of threats and 
we look at threats based upon the probability and the 
consequence. And we weigh our resource allocation toward that 
scale.
    Ms. Norton. Let's talk probability and consequence.
    Isn't there a greater probability for a single shooter to 
come in spraying a crowd or a motorcade than there is for 
someone to bring in a nuclear device today?
    Mr. Nichols. Yes. And I think if you look at some of the 
terrorist attacks that have taken place just recently--Mumbai 
is probably the best example of what a small group of people 
who are heavily armed can do to disrupt an entire city. We are 
not immune from that.
    We have seen--and you have talked about it, I have talked 
about it also--what occurred on July 24, 1998, where we had one 
individual with one handgun, and the disruption that he caused 
and two police officers dead and a citizen wounded.
    So, yes, it is a significant concern. It is a significant 
test of the planning and response capabilities of the law 
enforcement agencies in the city. And it is something we have 
to be cognizant of every single day.
    Ms. Norton. Thank you, Chief.
    Now, I would like to go down the line and ask any of you if 
you knew--of all the things that happened, most of the things 
you would expect to happen. I think what people didn't expect 
was that the officers would have to make an almost instant 
decision about the crowding and sending people through a 
tunnel. As it turns out, some of those had tickets. In fact, 
many, many of those had tickets and did not get out.
    I am trying to learn whether or not, with the present 
system of operability, if any of you were informed of the fact 
that there were people in the Third Street Tunnel.
    Mr. Delinski?
    Mr. Delinski. I will say that communications up to and 
including the Inauguration itself were very robust. The 
planning was tremendous; the event was tremendous. We had 
officers and officials assigned to many different command posts 
throughout the region that were able to feed back information 
to our EOC at Metro, so we would get real-time information and 
so forth. We had an extensive antenna out in the field, getting 
as much information as we could.
    However, to my knowledge, we were not notified of the Third 
Street Tunnel condition. There was no request made to help 
alleviate that. Of course, we had our hands full with Metro-
related issues, transporting 1.5 million people.
    Ms. Norton. You would have had your hands full, Mr. 
Delinski, if there had been a shoot-out in there, but I bet you 
would have dispatched Transit Police to help in the event that 
there was such an event.
    Mr. Delinksi. Absolutely.
    Ms. Norton. I am just trying to hear--I am not casting 
blame. If anything, we are trying to help, because we are 
shocked, amazed, and awed that there would not be 
interoperability among all those related and that you would 
have to do what looks like a jerry-built system if you want 
interoperability.
    Major General Schwartz, you had a major role to play. In 
fact, you were the commander of all the forces, not only the 
D.C. National Guard, but all forces at the Inauguration.
    Were you informed through radio or other kinds of contact 
that people were stuck in the Third Street Tunnel?
    General Schwartz. Ma'am, the joint task force D.C. was not 
missioned to provide support to the tunnel. We had 7,000----
    Ms. Norton. Yes, sir, I am just trying to know if you knew 
about it.
    General Schwartz. No, ma'am, we did not know about it.
    Now, does that point towards a physical communication 
problem or just failure to communicate? And that is what we 
have to look at. The officer who was probably sending folks 
down into the tunnel probably had no situational awareness of 
what was happening in the tunnel. Therefore, was it the failure 
to communicate or a communications problem physically?
    Ms. Norton. Well, we will find out, but the--in this age of 
high technology, it doesn't seem to us, if there were a state-
of-the-art system available to officers, that there would have 
been lack of notice of all officers. And, again, although there 
were people who got sick in the tunnel, handled very well, you 
hardly heard anything about it.
    And although people continued to be joyful about the 
Inauguration, our job and your job is to think of worst-case 
scenarios. And the worst-case scenario that I know, from 
speaking to a number of you about planning, was not that there 
would be a lot of folks there--you had already shown you could 
handle lots of people--but that something unforeseen would 
happen. As it turns out, this was the unforeseen event. And it 
happened in part because officers were trying to relieve 
crowding, not because of some outside force. And yet some 
outside force could have taken advantage of the failure to 
communicate.
    Mr. Herron, you are a public safety officer, as well. Do 
you know whether Prince George's officials or you were informed 
that people, I am sure some from your own county, were stuck in 
the Third Street Tunnel?
    Mr. Herron. Madam, I was in the emergency operations center 
during the entire event, and we were not informed.
    Ms. Norton. And this is the emergency operations center of 
where?
    Mr. Herron. Prince George's County.
    Ms. Norton. And you were not informed.
    Mr. Herron. No, ma'am.
    Ms. Norton. I think that the testimony here of very 
competent officers is all that needs to be said about this 
appropriation period and interoperability.
    Chief Nichols, isn't it true that some funds have been 
allocated to begin, at least, on interoperability among the 
region and the District of Columbia police?
    Mr. Nichols. Yes, ma'am. I believe that there was a lot of 
money that was given to the Department of Homeland Security to 
distribute across the Nation, with regard to grant money for 
local and State law enforcement agencies.
    The U.S. Capitol Police, because of the fact that we are a 
legislative branch agency, can't receive grant money. So we 
were appropriated a supplemental appropriation to begin 
planning for our new radio system. And we have requested 
additional funds in the current bill.
    Ms. Norton. So how far along are you, sir?
    Mr. Nichols. We are pretty far along in the planning stages 
right now. We are being monitored very closely by the 
Committees of jurisdiction to make sure that we are in the 
realm of----
    Ms. Norton. Does that mean not only the D.C. Police 
Department, but Metro? Does that also mean the region, that you 
would be interoperable with the entire region?
    Mr. Nichols. Yes, we would be interoperable with the entire 
region. We project right now, if we getting the funding that we 
are requesting and the authority to move forward, it would 
still be about 3 years before we get our system completely 
online and up and running. That is why the chief has made this 
such a priority, because nobody can predict in the span of 3 
years what we are really going to be facing, not only within 
the Capitol complex but within the region. So this is something 
that has a very high priority so we can get it online and get 
down the road with fulfilling our mission.
    Ms. Norton. Yes, General Schwartz?
    General Schwartz. Madam, may I just add that if the system 
is going to be delivered in 3 years, we have to look at 
upgrades to the existing system to make sure that they can all 
interoperate or upgrade it together.
    Ms. Norton. And it looks like between now and a fully 
interoperable system we are into jerry-built systems, at some 
considerable risk, I take it, it to homeland security.
    Mr. Nichols. You are right. Right now we are making due 
with what we have. I believe that, obviously, from the 
testimony today, we are not the only agency that is in this 
position. But the agencies in the region have to continue to 
bridge the gaps that we experience with regard to our 
communications capabilities.
    Ms. Norton. Mr. Herron, could I ask you a question? Once 
there was the evacuation of New Orleans, everybody talked 
about, how can we evacuate? Some of us have emphasized ``stay 
in place,'' that there are few events where there would be a 
need to evacuate whole populations. For example, we have floods 
in this area, but seldom have we had a hundred-year event, as 
they are called.
    However, it could be that there would be the need to 
evacuate people from the District of Columbia. It is a pretty 
big jurisdiction. You have spoken of a place--a shelter. I want 
to make sure I have--the places that are mentioned, which have 
been mentioned.
    Mr. Herron. Ritchie Coliseum and Showplace Arena.
    Ms. Norton. Ritchie Coliseum, Showplace Arena. How many 
people could be sheltered in these two facilities?
    Mr. Herron. I think, combined, we can probably shelter up 
to probably 3,000 people.
    Ms. Norton. If more than 3,000 poured out, think about 
where Prince George's is located.
    Mr. Herron. Then we are in trouble. To be quite honest with 
you, we are in trouble. You know, we have asked our citizens to 
be prepared to make a plan to shelter in place to prepare for 
the future.
    In Louisiana, we had more than 2,000 residents migrate to 
Prince George's County to stay with relatives, which impacted 
our capacity. They self-evacuated and stayed with relatives in 
Prince George's County, and it was a strain on our resources.
    Ms. Norton. Do you advise shelter in place unless told to 
evacuate?
    Mr. Herron. I think every citizen should have a plan to 
shelter in place, have alternative housing with friends and 
relatives that they can migrate to in case of an emergency.
    Of course there will be that segment of society who will 
not have the resources to do that. And that is when the 
government must be prepared to respond to the needs of those 
citizens.
    Ms. Norton. Most of the time, when there has been an event 
of some kind, you don't know what it is. Chief Nichols has 
testified that it is likely to be a spraying event of some 
shooter, as we had here in the capital, as it is to be some 
exotic event. So, therefore, the first thing is we don't know 
anything. That is why the questioning that Ms. Edwards and I 
have done on operability, in the first place.
    And before we tell people to stay in place, we would like 
to know what the event is, so that we can know what we are 
talking about. It puts us in a terrible position, you in a 
terrible position, to tell people to stay in place or to go 
without being able to speak to one another, with everybody 
trying to get on these little jerry-built systems that you have 
concocted. And, by the way, in case of a terrorist event, 
others being able to listen in to what it is you are saying.
    I would like to know, in the event of an emergency, whether 
known or unknown, where you would expect a unified command, who 
is in charge of making decisions?
    General Schwartz. Ma'am, I would think the local incident 
commander is in charge. That is the first person on the scene.
    Ms. Norton. Now, that would mean whoever in the 
jurisdiction, like Mr. Herron?
    General Schwartz. I think the first responders, which is 
normally police or fire, would be on the scene, and then the 
supporting packages will come in to assist that incident 
commander.
    Mr. Delinski. He is exactly right, if I could follow up on 
that. When there is an incident such as an active shooter, the 
first law enforcement official on the scene would set up an 
incident command. Any responding units, whether it be from that 
particular agency or other agencies, would report to incident 
command and ask for directions, get information and so forth, 
and feed that information back to their departments as well.
    If it is a rescue situation, such as a fire it would be in 
the hands of the fire department. At that point, law 
enforcement would respond to incident command and then work 
with them to mitigate the situation.
    Ms. Norton. Could I ask you this question, Mr. Delinski? I 
noted in your testimony, if I can find it, 2008, Metropolitan 
Transit Police Department investigated 224 suspicious packages 
and people, nine unknown substances, 20 bomb threats in your 
facilities. ``Investigated,'' that doesn't mean you found 
anything.
    Mr. Delinski. Correct.
    Ms. Norton. And I do appreciate that. Did any of these 
investigations involve guns?
    Mr. Delinski. There were a few incidents that were reported 
of suspicious people that were seen carrying weapons.
    Ms. Norton. When you see--now, of course, your system 
transports people throughout the region and especially to the 
District of Columbia, which is the hub of the region. If you 
see a person with a weapon in one of your facilities, how do 
you respond today?
    Mr. Delinski. If the weapon is concealed, obviously you 
approach that person and get as much information, maintaining a 
safe distance, watching the person's hands and so forth, doing 
the----
    Ms. Norton. How would you know if it were concealed, sir?
    Mr. Delinski. Because of a bulge maybe in the side, maybe 
someone else had seen it previously. It may have been 
moderately displayed underneath his jacket, where it was 
sticking out, the butt of the gun, or something along those 
lines.
    Obviously, if the weapon is out, we make the immediate 
police challenges to, raise your hands, stop what you are 
doing. And we have the person, if the weapon is in their hand, 
direct them to drop the weapon on the ground, move it away from 
them, and then spread them out in the prone position on the 
ground, where we can go and secure them and then investigate 
the circumstances that led us to that point.
    Ms. Norton. I believe, if I am not--I believe that Virginia 
does allow concealed weapons.
    Mr. Delinski. Correct.
    Ms. Norton. How do you handle the fact that one part of 
the--I am not sure Maryland does, however.
    Mr. Delinski. No, it is illegal.
    Ms. Norton. Maryland does not.
    Mr. Herron. You have to have a permit issued by the 
Maryland State Police in order to carry a concealed weapon.
    Ms. Norton. So you can have one with a permit?
    Mr. Herron. Yes, ma'am.
    Ms. Norton. It may require a permit, for that matter, in 
Virginia. But the point is you can conceal, carry, carry in 
many places in Virginia for sure.
    Mr. Delinski. Yes.
    Ms. Norton. How does the Metro handle three jurisdictions, 
all with vast amounts of the Federal presence, who have their 
own quite different gun laws?
    Mr. Delinski. It is complicated, to say the least. I mean, 
that is one of the reasons our recruits are selected through a 
vigorous background process. We go through three training 
academies. We are certified in all three States, as we refer 
to, the District of Columbia----
    Ms. Norton. So you have to know the laws, essentially, in 
all three States?
    Mr. Delinski. We have to learn the laws in all three 
States, correct.
    Ms. Norton. So you would, if we passed a whole new gun law 
in the District of Columbia, so new that it said, ``You don't 
have any more gun laws in the District of Columbia,'' would you 
have to retrain every officer?
    Mr. Delinski. All 450 sworn members we would have to 
retrain, yes.
    Ms. Norton. Are you funded to retrain all sworn officers of 
the Metropolitan Transit Authority?
    Mr. Delinski. There is currently no funding available for 
that now.
    Ms. Norton. How would you handle bus travel? Do bus drivers 
assume any responsibility--they are not law enforcement 
officers--for people carrying weapons? How would they be 
expected to respond, when coming from two jurisdictions which 
do have their own local gun laws to a jurisdiction which has no 
gun laws whatsoever, the Nation's capital?
    Mr. Delinski. We ask our employees, particularly those on 
the buses and in the rail system, to be vigilant in observing 
suspicious behavior. And we ask that if they do see this type 
of activity, a concealed weapon or otherwise, that they report 
it to us immediately. We do not ask them to intervene or take 
any type of police action and to be very limited in their 
contact with any type of suspicious person.
    Ms. Norton. Would such personnel, and in particular I am 
thinking about personnel who may see people who board the 
vehicle, such as a bus driver, would such personnel have to be 
retrained, as well, if there were no gun laws in the District 
of Columbia and they traveled on vehicles between the District 
of Columbia and other jurisdictions?
    Mr. Delinski. Currently, there is no training in the law 
for other employees outside the police department.
    Ms. Norton. So how do they know whether to call if there is 
a concealed weapon, for example?
    Mr. Delinski. We ask them through public service 
announcements and also public awareness campaigns, internally 
and externally, to follow those procedures and not take any 
type of direct action and contact us and let us do that.
    Ms. Norton. Mr. Herron, did you have something to add to 
that?
    Mr. Herron. Yes, ma'am, if I may take this opportunity to 
speak briefly about the amendment.
    Ms. Norton. Please.
    Mr. Herron. As you know, I am the public safety director in 
Prince George's County. As part of my responsibilities, I 
direct the police department and the fire department, the 
Department of Corrections.
    Prior to my appointment as public safety director, I was a 
Maryland State trooper for 27 years, and I proudly served in 
several jurisdictions throughout the State of Maryland, 
including Prince George's County. During my tenure, 13 of my 
colleagues were killed in the line of duty. Two of these 
colleagues were personal friends of mine, and they were killed 
at the hands of men who possessed illegal firearms. I 
personally was involved in a shooting where a man who attempted 
to take my life possessed a gun unlawfully.
    If this legislation passes, Prince George's County 
currently would be in a situation where our crime would 
increase tremendously.
    Just recently, we announced a drop in crime that had reach 
an all-time low. It hadn't been this low in 20 years, and this 
is because of the work of our men and women of the police 
department and our citizens. During this fight to decrease 
crime, two of our police officers were killed in the line of 
duty, Sergeant Richard Findley and Sergeant Goggins. Sergeant 
Goggins was killed at the hands of a criminal who should not 
have been in possession of a handgun.
    In the State of Maryland, we have gun straw purchases, 
where people can buy guns legally and then give those guns to 
somebody who should not possess them. With the enactment of 
this amendment in the District of Columbia, it will triple the 
straw purchases in the region. And I can tell you from 
experience from a local level that that would cause an 
increased amount of gun violence in Prince George's County and 
throughout the national capital region.
    Ms. Norton. Mr. Herron, the testimony is important, 
especially your testimony concerning increase and, as you have 
been able to report, the recent decrease in gun violence in 
Prince George's County. The District had as many as 430, 440 
homicides in the early 1990's, and it is down to something a 
little over 200 now.
    We cannot imagine how rapid or how savage would be the 
increase in gun violence if there were no gun laws in the 
District of Columbia at all. When everyone thinks of tight gun 
laws, all one has to imagine is a jurisdiction where there is 
none at all and you are left to your own devices.
    Now, let me ask you, Mr. Herron, as a public safety 
officer, how would the absence of gun laws here in the District 
of Columbia complicate any evacuation activities? You have your 
own gun laws; we would have none. You could stockpile assault 
weapons. You could have any--you could have gone to Maryland, 
you could have gone to Virginia. Maybe when you are leaving you 
want to take your guns with you.
    How would the presence of no gun laws, and therefore the 
accumulation of guns here, complicate evacuation and other 
activities associated with a natural or man-made disaster?
    Mr. Herron. I think the absence of gun laws, Madam Chair, 
would impair our efforts in the national capital region to keep 
our citizens safe. It is important that we have these layers of 
security, and the interdiction of illegal guns is one of those 
layers. If we are not able to control or we are in partnership 
with a jurisdiction that has no gun laws at all, it would 
definitely impede or impact not only evacuations but the safety 
of our citizens in the national capital region.
    You asked a question about the training of police officers, 
additional resources. You know, currently, the Maryland State 
Police is responsible for registering handguns and the purchase 
of handguns. If, in fact, this burden would be put on the State 
of Maryland, I don't think the State of Maryland has the 
resources to be able to have to register handguns from another 
jurisdiction.
    Ms. Norton. Would guns be allowed in any of the shelters 
where you would receive people from other jurisdictions or from 
your own jurisdiction?
    Mr. Herron. No guns would be allowed in any shelters unless 
you were a law enforcement officer.
    Ms. Norton. Of course, particularly with interoperability, 
it might be hard for people to know that.
    Mr. Herron. Yes, ma'am.
    Ms. Norton. If any kind of event were to occur now.
    General Schwartz. Similarly with the D.C. Armory, now that 
we have metal detectors on each of our entrances, we will be 
able to detect if any weapons would be coming into the 
building.
    Ms. Norton. I wonder if--no, that maybe under Federal law.
    Let me ask all four of you about layers. Again, this comes 
from testimony that we have received in hearings of the 
Homeland Security Committee, where the mythology of layers 
after layer after layer, local level, certain things happen 
there, certain things happen at the State, and the cumulative 
effects, if I may summarize it, is that you are able to provide 
security in a region as high-risk as this.
    I would like to speak about layering and what would happen 
if one layer, namely gun laws in the District of Columbia, the 
Nation's capital, were to disappear? Let's start with Mr. 
Herron and go on down.
    Mr. Herron. Madam Chair, I was present when you asked this 
question previously. I think that without a doubt that, if that 
layer was removed, it would impact homeland security in this 
region.
    It is important to have layers. It is important to have 
collaboration and cooperation. It is important to know what 
happens in others' jurisdictions about the sale and the 
purchase of guns and things of this nature.
    I am very concerned, our county executive is very concern 
about this pending amendment and how it is going to impact our 
citizens in Prince George's County.
    Ms. Norton. Major General Schwartz, you, of course, are 
perhaps most aware of the military-style weapons. I know that 
you have served in Iraq. I would like you to describe the 
notion of layering, which I understand goes on also on the 
ground when you are in a theater of war.
    General Schwartz. Ma'am, first, to clear the record and get 
it straight, I was not in Iraq, but my troops were in Iraq.
    But on the topic of layering, I think the first thing we 
have to do is the education of all citizens in this area so 
that they know the laws, so that they can assist the local 
authorities with this problem. If all citizens are fully aware 
of what the laws are, what the issues are----
    Ms. Norton. But, you see, I am not at the citizen level. I 
am now asking for officers. I am trying to find out--I 
understand the citizen layer has to be aware. I am assuming 
that the citizen layer, by the way, is not aware. I am not 
going to assume what millions of people know. I am trying to 
find out about the layering provided by various authorities 
available to us.
    General Schwartz. Yes, ma'am. And I think that, in the law 
enforcement arena, all layers are extremely important, and we 
cannot eliminate any one of those layers. There would be a 
significant gap, and there the security and safety of the 
entire population will be at risk.
    Ms. Norton. General Schwartz, if there had been no assault 
weapon ban in the District of Columbia at the time of the 
Inauguration, would that have complicated or affected the 
National Guard security that you were called upon to provide?
    General Schwartz. Yes, ma'am, it would have affected the 
briefings that our men and women received before going out on 
their mission, especially in the Mall where there were no 
screening required for the large number of folks----
    Ms. Norton. Well, please, let's make that point clear. 
There was screening if you happened to be close in and to have 
a ticket. But if there were 2 million people on the Mall, 
surely a million and a half were completely unscreened 
individuals.
    Go ahead, sir.
    General Schwartz. Yes, ma'am. As a matter of fact, they all 
were unscreened. They would only be screened if they were going 
into the parade corridor or close to the Capitol.
    So it was a concern. And we were very vigilant in making 
sure--and, as you hear earlier, we had mechanisms in place to 
conquer what may happen. And we were very fortunate that day 
that nothing happened.
    Ms. Norton. Mr. Delinski, going on down the line.
    Mr. Delinski. One of the things that we pride ourselves on 
at WMATA is our very low crime rate. The chances of someone 
being a victim of a Part 1 crime in the system, meaning one of 
the more serious crimes--rape, robbery, homicides, and so 
forth--are very low. Chances of being a victim of one of those 
Part 1 crimes is less than three per every million riders that 
we have on a regular daily basis.
    So if suddenly there is this influx of weapons that maybe 
this bill may bring about, you would certainly expect that we 
would see an increase of guns in the Metrorail system, which 
you can go down the road through this process and say may 
equate to a higher level of crime.
    Mr. Delinski. Also, we have a very open system at Metro. We 
do not have security points in place like airports----
    Ms. Norton. No screening whatsoever to get onto----
    Mr. Delinski. We have approval for random bag checks at 
station entrances. However, it is under conditions of higher 
alert levels or significant threat against a system. So they 
are not out there every single day.
    We don't have this airport-type screening of everyone who 
is coming into our system. So I think, with this amendment 
being passed, or if it would be passed, you would certainly 
expect that our vulnerability would increase as a result.
    Ms. Norton. I must compliment the Metro for apparently 
receiving endless numbers of new riders. You have become the 
most popular ticket in town. And you have kept a low crime 
rate.
    Of course, more people, more risk. And you are finding all 
kinds of people, including Federal officials who decide they 
are going to pass up that ride and just get on a Metro and get 
here. So that has increased, as well, we know for a fact.
    Finally, Chief Nichols?
    Mr. Nichols. Yes, ma'am, within our jurisdiction, we use a 
concept that allows us to identify threats the furthest point 
that we can. Our goal is to detect, deter, respond to a threat, 
defeat that threat, and then mitigate the results of what that 
threat brought to our jurisdiction.
    Those principles have to interplay well with each other. 
And, as you know, we are in the middle of this city, so we are 
not an island. Things that occur just on the other side of the 
street from us, even though it may be legal in that 
jurisdiction, especially with regard to weapons, doesn't 
diminish the concern that we have within our jurisdiction about 
a potential incoming threat.
    So it is a very significant issue; it has to interplay with 
each other. And we do take the layers of security and the 
concentric rings of security very seriously.
    Ms. Norton. The testimony of all four of you has been quite 
indispensable to this hearing. We are trying to get a sense of 
the threats to the region. We are trying to understand 
evacuation. We are trying to understand what happened, of 
course, at the inauguration.
    And even given the criticism, I want to take this 
opportunity to commend each and every one of you for a stellar 
performance. We didn't expect perfection; we didn't get it. 
Perhaps we didn't expect the Third Street Tunnel, but we should 
have expected there would be something like that.
    I don't know how Metro was able to absorb all of these 
people. It isn't as if you had any idea how many you were 
supposed to absorb.
    I do want to say for the record that, when it became clear 
that Metro had done all it could, I asked Mr. Catoe to come see 
me to do even more, so that the subways would be kept open 
beyond what he had already agreed to do without additional 
resources.
    I want you to know this is one Member--I think I have my 
whole region with me--going to try to get those additional 
resources for what was a Herculean job Metro did. There just 
would have been no inauguration, let's face it, without Metro. 
We would have been sitting here by ourselves, telling the 
President, ``It is 12 o'clock now. Metro has broken down, so 
nobody has come.'' That is just how indispensable Metro has 
been.
    And the reason people felt so safe, despite the crowds, was 
precisely because of the job each and every one of you did 
during that time. I regard it as an unplanned event. Sure, 
there was planning, and, sure, most of the planning worked. But 
I think it is most valuable because of what you could not 
possibly have planned for.
    So I want to take this opportunity, even given my 
questioning, to thank all of you for the work you did then and 
especially for your testimony concerning a brand-new threat 
that none of you could have contemplated and that may be upon 
us. I thank you very much.
    And I am going to now call the next panel. I am going to 
ask the--because we have run past where some of you I know 
expected, I am going to ask all of you who have not testified--
Mr. Sarubbi, Mr. Wall, Mr. DeAtley, Ms. Mathes--to come forward 
at this time. I apologize for the time it has taken.
    The purpose of this hearing was to get on the record what 
Members of Congress do not know. No one has read the bill. 
People were about to vote blindly against the security that we 
have spent billions of dollars to protect. At least no one will 
be able to say that they did not know, if they approve the 
Ensign amendment.
    And we are very pleased to hear from Jonathan Sarubbi, the 
regional administrator of FEMA, where the Office of National 
Capital Region is located; from Kenneth Wall, the acting 
director of that office, which is also in FEMA; from Craig 
DeAtley, director of the Institute for Public Health Emergency 
Response, ER One, and Washington Hospital Center; and, finally, 
from Linda Mathes, who is the president and CEO of the American 
Red Cross.
    Could I ask you to testify in that order?
    Mr. Sarubbi?

TESTIMONY OF JONATHAN SARUBBI, REGION III ADMINISTRATOR, FEMA; 
   KENNETH WALL, ACTING DIRECTOR, OFFICE OF NATIONAL CAPITAL 
  REGION, FEMA; CRAIG DEATLEY, DIRECTOR, INSTITUTE FOR PUBLIC 
  HEALTH EMERGENCY RESPONSE; LINDA MATHES, PRESIDENT AND CEO, 
        AMERICAN RED CROSS OF THE NATIONAL CAPITAL AREA

    Mr. Sarubbi. Good morning, Madam Chairwoman. I am Jonathan 
Sarubbi, the regional administrator for the Federal Emergency 
Management Agency Region III, based in Philadelphia, 
Pennsylvania. Thank you for the opportunity to appear before 
the Subcommittee to discuss today's hearing topic, ``Disaster 
Capacity in the National Capital Region: Experiences, 
Capabilities, and Weaknesses,'' and to answer your questions.
    I am joined today by my colleague, Kenneth Wall, acting 
director of FEMA's Office of National Capital Region 
Coordination.
    In my position as regional administrator for Region III, I 
oversee FEMA's all-hazard preparedness and emergency management 
efforts in Delaware, the District of Columbia, Maryland, 
Pennsylvania, Virginia, and West Virginia. Region III works 
with our partners in the regional, State, and local levels to 
prepare for, respond to, and mitigate against man-made and 
natural disasters.
    The regional office is composed of experts in four distinct 
areas that provide support in our mission, and they are 
preparedness, mitigation, response, and recovery. As a part of 
our mission, Region III plays a vital role in the event that a 
Federal disaster declaration is issued for our region, 
including assisting in the development of preliminary damage 
reports and providing support for public assistance grants and 
individual assistance grants.
    Let me address a number of specific points of interest to 
the Committee.
    We partner closely with our colleagues in the Office of 
National Capital Region Coordination. This partnership includes 
areas of risk assessment to support decision-making, 
participating in drills and exercises, and the coordination in 
response to incidents in the national capital region. Should a 
natural disaster occur in the national capital region, FEMA 
Region III coordinates disaster response and recovery under the 
guidance of the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act.
    In accordance with the national response framework, 
disasters are managed locally. Within the national response 
framework, FEMA Region III provides direct support to Virginia, 
Maryland, and the District, including assistance with 
evacuations, sheltering, and other unmet needs. Each State and 
the District maintains sovereign authority and receives support 
in disaster funding from FEMA Region III independently. The 
Stafford Act directs that the District be treated as any of our 
50 States. The Stafford Act also equates the position of mayor 
with that of a State Governor, and he or she would act 
accordingly for the purpose of asking for Federal disaster 
assistance.
    During an incident within the District, local first 
responders establish command of the incident and manage the 
response. FEMA Region III monitors the incident, assesses 
District needs, and provides assistance upon request to the 
mayor and approval of the President.
    On the issue of mass care, the District's Department of 
Human Services has the lead for Emergency Support Function Six. 
This entity would be responsible for shelter or feeding 
operations within the District. The American Red Cross of the 
National Capital Area supports the District's Department of 
Human Services by providing sheltering management teams while 
Serve D.C. Augments with further volunteer support upon 
request. In addition, the District Department of Health 
utilizes the Medical Reserve Corps and works in conjunction 
with the Department of Health and Human Services to support any 
medical needs.
    With regard to the Capitol grounds, we are not aware of any 
formal agreement between the legislative and executive branches 
to address disasters on the Capitol grounds. In the event of a 
localized incident, such as a fire or severe storm, the local 
jurisdiction response would normally address the response. The 
Capitol Police would be the first to respond to an incident on 
the Capitol grounds and, as the incident commander, coordinate 
with other response agencies as necessary. This is in line with 
the National Incident Management System and the National 
Response Framework.
    For a larger event, such as a major hurricane, where there 
is a Stafford Act declaration, any Capitol grounds issues could 
be coordinated through the Unified Coordination Group within 
the Joint Field Office. The Joint Field Office coordinates the 
delivery of Federal assistance and funds to the District of 
Columbia.
    In conclusion, our disaster capacity in the national 
capital region is robust. Through working with the Office of 
National Capital Region, State, Federal, and local entities, 
Region III is prepared to provide the support necessary in the 
event of a disaster in the national capital region. The 
experiences we have had with disasters in this region, a 
refinement of our capabilities, and lessons learned have Region 
III properly prepared to respond to a disaster in our region 
and specifically in the capital area.
    I look forward to answering your questions. Thank you, 
Madam Chairwoman.
    Ms. Norton. Thank you very much.
    We will go on to Mr. Wall now, the Office of National 
Capital Region Coordination.
    Mr. Wall. Good afternoon, Madam Chair. I am Ken Wall, 
acting director of the Office of National Capital Region 
Coordination, which is now part of the Federal Emergency 
Management Agency. And I appreciate your invitation to join my 
colleagues Jon Sarubbi, Craig DeAtley, and Linda Mathes in 
appearing before the Subcommittee today.
    As you mentioned in your opening statement, due to the 
unique nature of the national capital region, Congress 
established the Office of National Capital Region to coordinate 
Federal, State, local, and regional authorities for the purpose 
of enhancing preparedness in the national capital region.
    We do this by working closely with our regional partners, 
an example of which is our engagement with the National Capital 
Region Senior Policy Group, which is compromised of the 
homeland security advisors and chief emergency managers of 
Virginia, Maryland, and the District of Columbia, who represent 
their chief executives and jurisdictions. I am a member of the 
Senior Policy Group, representing the Department of Homeland 
Security and the Federal Emergency Management Agency.
    The Senior Policy Group plays a key role in sustaining a 
coordinated regional approach to homeland security and 
strengthening integrated decision-making and planning. This is 
just one example of the engagement of the Office of National 
Capital Region Coordination. We also work closely with other 
National Capital Region stakeholders and partners, to include 
the local chief administrative officials, public health 
officials, first responders, emergency managers, leaders from 
the private sector and nonprofit communities, and many other 
Federal, State, local, and regional officials.
    Working with our National Capital Region partners, the 
office provides support and build in capacity to respond to an 
incident in a coordinated fashion. For example, the Office of 
National Capital Region Coordination and other Senior Policy 
Group members developed the ``First-Hour Checklist'' for the 
National Capital Region to guide coordinated leadership 
decisions and actions during the initial response to an 
incident in the National Capital Region.
    Significant strides have also been made with regards to 
interoperability, as well as risk analysis to support decision-
making by NCR leaders. Additionally, the Office of National 
Capital Region Coordination plans, leads, or participates with 
regional partners in exercise and drills and events that occur 
frequently in the National Capital Region. These efforts 
bolster regional information-sharing and integrated planning.
    During response to a natural disaster, the office is able 
to support Region III and the Federal coordinating officer. For 
example, we provide enhanced situational awareness, assist in 
the coordination with national capital region partners, and 
deploy agency representatives to National Capital Region 
Operation Centers, where needed, to augment FEMA and Region 
III's capability.
    The Office of National Capital Region Coordination's 
activities allow us to contribute to FEMA's broader efforts to 
improve and maintain relationships with State and local 
partners, toward the end of working well together in the event 
of another natural disaster.
    I look forward to addressing any questions you may have.
    Ms. Norton. Mr. DeAtley?
    Mr. DeAtley. Madam Chairwoman, thank you for the 
opportunity to testify today. I previously submitted my written 
testimony but appreciate, in particular, the opportunity to 
share some concise remarks and have brought one additional 
document that I would request, if possible, to be added to the 
record.
    I would like to begin my comments today by noting that, in 
the context of remarks that have been made prior to mine, I 
think it is important to keep in mind that when laws are broken 
and weapons are used to inflict harm, oftentimes the victims of 
that crime end up in a trauma center such as the Washington 
Hospital Center. I think it is also important to keep in mind, 
too, that hospitals and, as we saw last weekend, even nursing 
homes can become the actual site of that violence.
    When talking about disaster capacity, given the current 
climate for change in our health care system, I think it is 
also important to keep in mind that no meaningful change can 
occur in our system at present that does not include expanding 
the support given to emergency preparedness both for our 
hospitals in the national capital region and across this 
Nation, as well as for all other members of the health care 
system.
    Since 2002, I have been one of two people responsible for 
coordinating emergency preparedness at the Washington Hospital 
Center, more recently at the National Rehabilitation Hospital, 
as well as for MedStar Health, the parent company for both of 
these facilities. Prior to that time, I spent 29 years at 
George Washington University, where I had similar 
responsibilities.
    The Washington Hospital Center recognizes that, as the 
largest hospital in the national capital region, home of the 
busiest trauma center, emergency department, and only adult 
burn unit, we have special responsibility in the area of 
emergency preparedness.
    Since 1999, with the inception of the project ER One, a 
unique federally funded project to develop an all-hazards, all-
risks-ready health care facility, the Washington Hospital 
Center has undertaken a number of important initiatives to 
improve our state of readiness. These include, but are not 
limited to, introducing an innovative facility design to 
maximize capacity, capability, and protection, as well as 
building a state-of-the-art ready room to take care of victims 
from mass casualty incidents from natural as well as man-made 
causes.
    The Washington Hospital Center took the lead in writing and 
obtaining, on behalf of a broad-based District of Columbia 
health care coalition, one of five nationally awarded $5 
million Department of Health and Human Services coalition 
partnership grants. The purpose of this grant is to improve the 
emergency preparedness of the entire District of Columbia 
health care system. The Washington Hospital Center is 
privileged to be administering that Federal grant.
    I think it is important to note that the health care 
facilities occupy a unique position in the emergency response 
framework. If you look at the big six--police, fire, EMS, 
hospitals, public health, and emergency management--hospitals 
are the only ones that are privately funded. The work we need 
to do to become and stay prepared and ready to respond to a 
major disaster must be funded from clinical care or else be 
supported by government grants and other forms of assistance.
    In December 2007, in response to a recognized problem of a 
siloed and fragmented health care system in the District of 
Columbia and as a result of that $5 million HHS grant, the 
District of Columbia Emergency Health Care Coalition was 
founded to create a more comprehensive and collaborate approach 
to preparedness as well as response, one that unites all 
aspects of our health care system. The District of Columbia 
Emergency Health Care Coalition now includes all of the D.C. 
Government agencies with health care facilities working 
alongside all of the private-sector health care organizations 
in our Nation's capital.
    In the short span of 18 months, the coalition's Emergency 
Management Committee and associated work groups have conducted 
a first-ever hazard vulnerability analysis for the health care 
system, written a much-needed emergency operations plan and 
accompanying attachments on communication and the role of the 
public information officer. And soon there will be a health 
care facility evacuation template, as well. We have expanded 
our hospital mutual aid radio system and included additional 
partners as part of that system.
    We are solving the family reunification problem; that is, 
how does a family member or friend find out which hospital 
their loved one has been taken to in the midst of a mass 
casualty incident? Soon, seven of the busiest emergency 
departments in the city will be sharing real-time patient 
registration data with the D.C. Department of Health during a 
declared emergency. This is a remarkable accomplishment, one 
that is equalled by few other cities in our country.
    The coalition has also hired a consultant to conduct a 
security risk assessment for eight hospitals and completed a 
design charrette of the Washington Hospital Center campus, a 
campus that has been identified as one of 24 critical 
infrastructures in our city.
    We also recognize that a mass casualty incident does not 
respect political or geographic boundaries. We need to and have 
been increasingly coordinating our efforts with our colleagues 
from Maryland and Virginia.
    Despite the significant improvements and the progress that 
I mentioned, there are still numerous needs and issues that 
individual hospitals, such as my own, and the coalition itself 
are confronting. These include but are not limited to, for 
example: The Washington Hospital Center is still seeking $120 
million to fund the building of our ER One facility, to provide 
expanded and adequate capacity and capability, to deliver 
emergency care to the people of District of Columbia, and also 
to be a national demonstration facility for emergency care 
design, optimized both for daily operations and high-
consequence events. The coalition funding will end September of 
2009, and there is no follow-on Federal funding being planned. 
We need that continued funding in order to meet the additional 
substantive work that remains to be done.
    And, finally, changes need to be made in State and Federal 
funding regulations. Currently, hospitals are not allowed to 
receive disaster funding under the Stafford Act and other 
select Federal, State, and local disaster regulations. During 
the inauguration, for example, hospitals throughout the 
national capital region incurred millions of dollars in 
expenses and lost revenues associated with supplemental 
staffing and cancelled elective admissions and procedures, but 
were told by FEMA that we are not eligible for relief funding, 
despite there being a presidential declaration. The fear that 
some of us has is the disaster within the disaster. 
uncompensated expenses related to our response will bankrupt a 
hospital such as my own because we are operating on a 1 to 2 
percent operating margin.
    Since 9/11 and especially over the past 18 months, the 
health care system in our Nation's capital has made significant 
improvement in emergency preparedness. And the Washington 
Hospital Center feels privileged and pleased to have played a 
role in facilitating some of these improvements. But much more 
needs to be done.
    I would be glad to answer any subsequent questions that you 
have.
    Ms. Norton. Thank you, Mr. DeAtley.
    Now Ms. Mathes?
    Ms. Mathes. Chairwoman Norton, thank you for inviting me to 
participate on this important panel with these great 
colleagues. I am Linda Mathes. I am CEO of your American Red 
Cross in the national capital region. I am absolutely honored 
to represent the American Red Cross in the District of Columbia 
and, in Virginia, Alexandria, Arlington, Fairfax County, Prince 
William and Loudoun Counties, and, in Maryland, Prince George's 
County and Montgomery County, Maryland, and all the cities 
within these counties.
    With your permission, I would like to submit the entire 
written testimony and simply highlight right now a few key 
comments, major themes in the testimony.
    First, a little bit about the background of the role and 
the experience and the capacity of the American Red Cross in 
this region. For more than 125 years, our Nation has relied on 
the American Red Cross in times of disaster to help provide 
shelter, food, clothing, emotional and other support. We also 
supply nearly half the Nation's blood, and we teach literally 
hundreds of thousands of people in life-saving and emergency 
preparedness skills. In addition, we support the men and women 
of the military and their families.
    In this community, we have been engaging the community in 
carrying out this mission and delivering these services for 
over 104 years. Our mission is to provide relief to the victims 
of disasters and help people prevent, prepare for, and respond 
to emergencies. We carry this mission out absolutely every day, 
responding typically every day to some two to four disasters, 
typically fires in this community, like the three we responded 
to this Saturday. We assisted some 33 people, spent about 
$8,000 providing for food and clothing and health and medical 
supplies and mental and emotional support that is needed.
    While responding to these everyday local disasters, we also 
respond to the larger periodic disasters that have been 
mentioned today--hurricanes, floods, tornadoes--and those odd 
ones like the sniper attack, the anthrax attack, the terrorist 
attack. While responding to these, we are always preparing for 
the next major, large disaster that could occur. In addition, 
our local Red Cross has a unique opportunity to work with 
community officials in preparing for and responding to national 
special security events, like the presidential inauguration or 
memorial openings or presidential funerals.
    Our typical role and the one that is built into local and 
county plans and even the National Response Framework is 
largely mass care, human care, providing the feeding and the 
sheltering and the bulk distribution of critical supplies.
    To carry out all these services, we rely on a network of 
thousands of volunteers. We have thousands of volunteers in 
this area and about a thousand who are dedicated to helping us 
with disaster work. We manage large numbers of spontaneous 
volunteers, as well. The example of the thousands of people who 
were displaced by Katrina coming into our community. There were 
some 7,000 evacuees who came into our community. We mobilized 
some 2,000 volunteers to help us here, and we deployed some 
2,000 to help along the Gulf Coast.
    We rely on partnerships and collaboration with dozens of 
public and private and nonprofit partners to recruit volunteers 
and carry out these services. Partnerships with faith-based 
organizations, with organizations like 100 Black Men, the 
Nonprofit Roundtable, Salvation Army, Catholic Charities. We 
work with the Board of Trade and the Council of Governments.
    We also rely on having ready access to equipment and 
supplies to enable us to shelter and feed thousands of people, 
particularly critical during those first 72 hours up to a week. 
Our model for disaster services is collaborative, diverse, 
inclusive. This is truly all about neighbors helping neighbors.
    We have increased our capacity significantly over the past 
several years. We have focused on increasing preparedness of 
Red Cross chapters throughout the area, increasing the 
preparedness of families and businesses throughout the region. 
And we have done you this through a variety of education and 
training programs. We train, in the course of a given year, 
typically over 100,000 people in important life-saving and 
emergency preparedness skills.
    We focus on extending our outreach, again, through dozens 
of public and private and nonprofit partnerships. We play the 
leadership role with the Nonprofit Roundtable and at the seat 
with the Council of Governments on the Emergency Preparedness 
Council with the Regional Human Services Working Group. We co-
chair the Nonprofit Emergency Preparedness Task Force. We reach 
out to networks of networks to engage our partners and 
colleagues.
    Within the region, we have developed region-wide plans to 
mobilize Red Cross resources throughout the region wherever 
they are needed. We have been fortunate to receive UASI 
funding--UASI has been mentioned several times today--to be 
able to increase our critical supply of cots and blankets and 
comfort kits, the kinds of essential supplies we need to 
shelter and feed thousands of people at any time. We have also 
been fortunate in acquiring charitable dollars and private 
sponsorships that has enabled us to open up a Regional Disaster 
Coordination Center to facilitate coordination and 
communication throughout the region.
    Three remaining key points: First, we have a plan in place, 
and we have experience implementing it. We test it, we drill 
it, we learn from our experiences and update our plans. 
Secondly, we have made great progress. And this is largely due 
to the kind of collaboration and partnerships each of us has 
spoken about today.
    Thirdly, as much progress has we have had, there is much 
progress yet to be had. Some key areas for further 
strengthening are: first, volunteers. Well, we have thousands 
of volunteers, and they are the backbone of the American Red 
Cross. We need more. We need people to step up to the plate and 
get training before the next disaster occurs.
    Secondly, and this has been mentioned today too, the 
importance of more families taking seriously the development of 
personal and family emergency preparedness plans, taking those 
few basic, core actions to prepare themselves and their 
families for emergencies. We urge more attention and more 
leadership to encouraging families to do this.
    Thirdly, supplies. We have the ability, we have ready 
access to the kind of supplies that would enable us to shelter 
some 15,000 people tonight. We have the ability to feed more 
than twice that many. We need more supplies. We need more 
supplies that would enable us to take care of people with 
special needs and disabilities. We have some; we need more.
    And, lastly, we need the kind of warehouse and storage 
space to store these supplies, and, again, on both sides of the 
river.
    In conclusion, Madam Chairwoman, I am confident that we are 
more prepared now as a local community, a region, and a nation, 
more prepared than we ever have been. We have made great 
progress. You can count on your American Red Cross to do 
everything we can to work with you to help the families in this 
community and the businesses and the community in general be as 
prepared as we can possibly be for excellent response.
    Thank you.
    Ms. Norton. Well, thank you, Ms. Mathes. I should thank you 
for your continuing really indispensable activities here in the 
District of Columbia all the time, always available.
    Mr. Sarubbi and Mr. Wall, you heard the testimony, I 
presume, concerning interoperability. Were you aware of this 
interoperability? And to what extent is this region-wide 
interoperability?
    Mr. Wall. I would like to address that.
    We were aware that there are legacy systems that exist 
still in the National Capital Region----
    Ms. Norton. Well, Mr. Wall, let me ask you, before you go 
any further, how much money have you received, you the region--
as a region, our money comes straight to you first off--how 
much money have you received from the Federal Government since 
9/11?
    Mr. Wall. The National Capital Region, through the Urban 
Area Security Initiative grant, has received about $335 million 
since, I believe, the first round in 2003.
    Ms. Norton. Now, of that, how much money has gone to 
systems for interoperability?
    Mr. Wall. Specifically for voice interoperability radio 
systems, I believe Chief Delinski mentioned the radio cache. We 
have 1,250 radios positioned around the region for catastrophic 
events to provide some of that interoperability. About $5.5 
million has gone for the purchase of those radios to maintain--
--
    Ms. Norton. So who is interoperable on what you are 
describing there as various devices?
    Mr. Wall. The caches that I am describing were purchased by 
the region to assist with the jurisdictions that aren't in a 
full operational state right now, including Federal responders, 
such as Capitol Police, as the chief mentioned, and other local 
jurisdictions.
    In addition to that, I believe about $6 million from the 
regional Urban Area money was also provided in support of 
Prince George's County, to help them with their 
interoperability challenge as well.
    Ms. Norton. Mr. Wall, is there any plan to have a--first of 
all, I appreciate what you have done to fill in the blanks 
there. But in light of the fact that even the Capitol Police 
can't talk with the D.C. Police, have any funds been set aside? 
Are we in the process of making the national capital region 
interoperable one with another?
    Mr. Wall. Yes, ma'am, I believe we are. I think we are 
taking aggressive steps to do that.
    And one thing that I would like to raise, just so we have 
in context the state of interoperability, the Department of 
Homeland Security a couple years ago went to urban areas around 
the country and did an interoperability test. And the national 
capital region was one of a handful of jurisdictions that 
received the highest marks for tactical-level voice 
interoperability.
    So, in terms of where we are with the rest of the Nation, 
through the systems that we have in place, both legacy systems, 
both in systems that connect legacy systems to other systems, 
you know, we do have that tactical voice interoperability.
    Ms. Norton. Mr. Wall, I think you have done exactly the 
right thing, given what, I take it, is a much larger expense 
for complete interoperability. I must start, though, from the 
hit on the Pentagon. From the description, I believe it was the 
chief or Mr. Herron, of how they had to just hand out whatever 
they had then.
    And I must ask then, therefore, is there a plan and has any 
money been set aside to make the National Capital Region, where 
the bulk of the Federal presence is located, fully 
interoperable, quite apart from what you have? It seems to me 
done quite well to fill in the gaps pending what I still 
haven't heard. Is there a plan to make the region fully 
interoperable?
    Mr. Wall. I will say, yes, there is a plan, but 
understanding that, when we are talking interoperability in the 
National Capital Region, we have resources that are available 
to our State and local responders. And that process has worked 
very well. We have put a lot of resources into that----
    Ms. Norton. So the money that went to State and locals they 
have tried to use for that purpose. What would it take for all 
of them to be a part of an interoperable system so that you 
wouldn't need little radios and the rest that you have already 
done to, in fact, make it possible to talk among yourselves?
    Mr. Wall. I am sorry, I am not sure I----
    Ms. Norton. What would it take, either in terms of 
logistics or funds, to go beyond what you have done since 9/11?
    Mr. Wall. It would take some resources for some Federal 
responders so they can come up to the same level of capability 
that our State----
    Ms. Norton. Are you satisfied that if there were an event, 
with what you have been able to do--and I commend you for what 
you have been able to do--that there would be secure systems, 
that you could talk one to the other, today?
    Mr. Wall. Yes, ma'am.
    Ms. Norton. Who owns those radios or other devices you are 
speaking about?
    Mr. Wall. The devices that I am speaking about and the 
radio caches are owned by the region, if you will. They were 
bought with regional funds. They are managed by Fairfax County, 
Montgomery County, and the District of Columbia. So they 
maintain the radios, they program the radios, they deploy the 
radios.
    Ms. Norton. If your testimony is that you are satisfied 
that the devices of various kinds that you now have on the 
ground are secure and interoperable, why do we need 
interoperability at all? Or do we? Perhaps you are testifying 
we don't need interoperability.
    Mr. Wall. No, ma'am, I am not testifying that we don't need 
interoperability. And to the point made on the earlier panel, I 
think there are steps that we still can achieve to increase our 
interoperability.
    What I am saying is we have a baseline of capability today 
that was developed by the region, by the public safety folks in 
the region, the decision process up through their chief 
executives, that size what we have now and the capability and 
the plan so that we have, today, interoperable communications.
    Ms. Norton. All right. Are you satisfied with what Chief 
Nichols and the chief of police of the District of Columbia 
have on the ground in terms of the way they do 
interoperability?
    Mr. Wall. I can't speak specifically to the state of the 
Capitol Police, so I would have to get back to you.
    Ms. Norton. Well, what do you think of the fact that most 
of the officers I asked at the table, I don't think one of them 
knew that hundreds, if not thousands, of people were stuck in 
the Third Street Tunnel, didn't know it, even though they had 
been funneled there by what seems to me to be a competent 
decision on the part of the police. And other police at the 
other end of the tunnel, seeing these people come, even though 
they had tickets that they were waving in the air, kept them 
there.
    How do you justify that kind of interoperability, if that 
is what they were supposed to have had, given their testimony 
that none of them even knew about it at the time?
    Mr. Wall. I don't justify that situation. And----
    Ms. Norton. I ask you about that because it is a real-life 
example. We have very few real-life examples, and that was a 
tremendous success. But here is an in-time example of no 
interoperability when we had more people in the District of 
Columbia than at any time in the history of the Nation's 
capital.
    So when you say we have these devices on the ground, you 
would have expected, of all the time they would have been 
working, during the inauguration. So I am left to understand 
how that could have occurred, that even Capitol Police at one 
end of the tunnel didn't know that other police had, in fact, 
funneled people through the tunnel, and others were completely 
in the dark, including the commander of all of the forces, the 
military forces, who were here. So I am not yet understanding 
interoperability with these devices that you have on the 
ground.
    Could it happen again? I guess since you say, ``Hey, we 
have got these devices,'' what is to keep that from happening 
tomorrow if, in fact, we have people in the Third Street 
Tunnel?
    Mr. Wall. I would say, my understanding of exactly what 
happened is very limited, that there is--I think the takeaway 
from----
    Ms. Norton. The only reason I press you, Mr. Wall, is that 
you have testified that what you now have is secure--and you 
haven't even said you have requested full interoperability--is 
secure and does, in fact, give you the ability to operate as 
you are supposed to operate.
    It is only in light of that question that I am putting 
these questions before you. Because I have this real-life 
example that I have to account for. And I have the fact that 
this could happen again, and I don't have any way to know what 
I, as a Member of Congress, should be doing, what I should be 
asking for, and the like.
    Mr. Wall. I am not----
    Ms. Norton. Maybe Mr. Sarubbi, your superior, has some 
ideas. I need to know, could this happen tomorrow? Are you 
satisfied with what is on the ground? This is the national 
capital region. We have a real-life example from 9/11 of 2 
million people here, thousands stuck in the tunnel.
    And Mr. Wall has put together the best he can with the 
money he has had. And I want to know why that didn't work 
during the inauguration and thousands of people were stuck in a 
tunnel.
    Mr. Sarubbi. Well, our role in FEMA is to prepare first 
responders to respond to a disaster, and also to assist them in 
responding to a disaster by providing direct Federal 
assistance, as well as funding. So I think the questions that 
you are asking are perhaps a little bit outside my purview, in 
terms of----
    Ms. Norton. Mr. Wall reports to you, sir. This is an office 
in FEMA. We set up a special office. First it was located just 
in the office; then they moved it on to FEMA.
    Now, Mr. Wall is only a coordinator. He has coordinated, it 
sounds to me, as best he can. And yet he is unable to tell me 
whether or not, if you had people stuck in the Third Street 
Tunnel, the system he has put in place would work interoperably 
so that people at one end of the tunnel would know what people 
at the other end of the tunnel were doing.
    Therefore, I don't know what to ask Congress to do, what to 
tell my colleagues. I am left here with no answer. Somebody has 
to tell me what to do so there is not another Third Street 
Tunnel event.
    Mr. Wall. Madam Chair, if I might just--I, perhaps, gave a 
bad description of what my role is and led to some sort of 
misunderstanding.
    The interoperable communications that I was talking about 
funded through the Urban Area is State and local capability 
based on State and local decisions and plans. We, as a 
coordinator, support that process and make sure that the 
Federal, State, and local people are part of that process and 
have awareness into it.
    But I don't have--it is not the role of the office to put 
in place an operable communication for an event such as the 
inauguration.
    Ms. Norton. No, I understand the difference between an 
operations office and a coordinator. But you are the 
coordinator. You are the only ones who know--who are supposed 
to know what is at one end of the tunnel and what is at the 
other so you can tell the others what it is they have to do.
    Mr. Wall. Well, I think that assumes that we have a 
tactical-level operational role, which our office does not.
    Ms. Norton. So do we have a void there? Nobody knew what 
was happening in the tunnel, and nobody is able to tell me who 
should have known or what we should do about it.
    Could I ask you to do this, Mr. Wall?
    Mr. Wall. Yes, ma'am.
    Ms. Norton. I have no complaint about what you have done, 
given the resources available to you. I have had to sit here 
and listen to the chief of the Capitol Police say he can't even 
talk to the chief of the largest police office in his very 
jurisdiction, that is to say the District of Columbia. Then, 
upon further examination of witnesses, they say they can't talk 
either.
    And yet you have testified that you have these devices that 
enable people to talk; they are fairly secure. But you have not 
been able to tell me that there have been conversations that 
tell you that these devices enable you to be interoperable in 
the Third Street Tunnel again, should an event occur there. I 
have to assume an event will occur there. It is not my job to 
assume that this is the last event in the Third Street Tunnel 
or some other tunnel. We have nothing but tunnels in the 
District of Columbia.
    It is my obligation to ask you to meet with the members of 
the region to discuss interoperability and, within 30 days, 
indicate to us whether or not you believe, in the event of an 
event in the tunnel or, for that matter, in WMATA, which is 
also in essence a tunnel, whether you could communicate, one to 
the other, and what it is, regardless as a request for funds, 
but what it is you would need in order that police even in the 
same district, the District of Columbia, can talk to one 
another and certainly across the district.
    We are not going to be sitting up here having another event 
and people didn't even tell us what to do, or another Third 
Street event and we weren't even warned that you were not 
interoperable. That is why we feel so strongly. I lost three 
schoolchildren, among other residents, among these 184 people.
    And we need more information on interoperability so that, 
in my role as a Member of the Homeland Security Committee, in 
my role as Chair of this Committee, which has the major 
jurisdiction over FEMA, I can know what it is to tell my 
colleagues is needed.
    Now, Mr. DeAtley, you testified that, under the Stafford 
Act, the hospitals weren't even--some of them weren't even 
eligible to be reimbursed. Now, first of all, I am told--let me 
ask you this question to precede it. What hospitals in the 
District of Columbia are for-profit, and what hospitals remain 
nonprofit? Are you aware of that?
    Mr. DeAtley. Generally speaking, yes, ma'am. The three for-
profit facilities that I am personally familiar with are George 
Washington University and the specialty hospitals of Hadley and 
Capitol Hill. And, actually, I think there is a fourth; that 
would be United Regional.
    The remaining facilities----
    Ms. Norton. You said United Regional. That is Greater 
Southeast?
    Mr. DeAtley. Old Greater Southeast, yes, ma'am.
    Ms. Norton. How about Metropolitan Hospital Center?
    Mr. DeAtley. The Washington Hospital Center is a not-for-
profit. NRH is a not-for-profit. Those other facilities in the 
system, if you will, which number now, I believe, about eight 
others, are all not-for-profit, is my understanding.
    Ms. Norton. Mr. DeAtley, I have been informed by staff that 
one of the reasons--and this is an absurdity. This is why 
people need to tell us and why I am pressing Mr. Wall and Mr. 
Sarubbi to get us the appropriate information. I am told that 
the Stafford Act provides funding for nonprofits. Isn't that 
ridiculous? I mean for nonprofits only.
    For at least 50 years, you have had hospitals turning from 
nonprofit to for-profit. Here we have some of the biggest 
hospitals in the District of Columbia now for-profit. And I am 
sitting up here with a major jurisdiction over the Stafford Act 
not even knowing that I should have requested a change in the 
Stafford Act to request a change in medical funding and medical 
operations today where they are often owned, even if they are 
connected with a university, by a for-profit entity.
    And I do want to thank you for that testimony, because it 
is another one of the absurdities of how easy it is for the 
bureaucrats to simply answer, when you ask for funding, 
``Sorry, we only fund for-profit,'' without coming and telling 
us about that. Any Member of Congress will today have for-
profit hospitals that yesterday were nonprofit.
    So forgive me for not knowing that. And that is a change I 
expect to request in the Stafford Act upon finding more 
information about it.
    Ms. Mathes, as I am aware of the extent which you are 
dependent upon volunteers, I need to know how many of your 
thousands of volunteers live in the District of Columbia.
    Ms. Mathes. We will be happy to follow up with you to give 
you some precise numbers. The figures I quoted to you, several 
thousand volunteers who work with us in this region, that 
figure can be broken down according to how many are in the 
District and how many are in other parts of the region. If you 
would permit me, I would like to follow up and give you that 
level of detail.
    Ms. Norton. I am aware that there is great generosity in 
sharing volunteers across regional lines. But I would, in the 
event of an event, getting to the District, if you were a 
volunteer who resided in the region, might be difficult. And 
your own people might be asking you to give aid first and 
foremost there.
    So we really do need to know the breakdown of these 
volunteers. I would like it for the District of Columbia, 
Montgomery County, and Prince George's County and the other 
regions in the national capital region, if you will.
    Have you had any mock exercise here, either for evacuation 
or any other event, Ms. Mathes?
    Ms. Mathes. We have participated in numerous exercises with 
our colleagues at the table and colleagues around the region, 
exercises and drills in the District and elsewhere.
    Ms. Norton. Any involving evacuation?
    Ms. Mathes. I would like to--typically, the exercises and 
drills involve a particular type of incident. I would like to 
get back to you on a precise answer regarding if any of them 
have regarded evacuation.
    Ms. Norton. One of the things I am most interested in, Ms. 
Mathes, is whether, in the event of an evacuation, absent some 
kind of event with gases so noxious that they were being 
released all over the District of Columbia, one could imagine a 
situation where instead of evacuating to Prince George's 
County, which has limited capacity as you heard in prior 
testimony, one might evacuate to other sheltering places in the 
District of Columbia, such as the Armory, such as large places 
such as the Verizon Center and the rest.
    Are those places considered places for evacuation? In other 
words, for sheltering within the District of Columbia, what 
would those places be, please?
    Ms. Mathes. We have identified quite a few shelter 
locations in the District of Columbia and elsewhere. They are 
typically schools, some churches, some other organizations. We 
have identified some 56,000 spaces, again throughout the 
region, but I can follow up with you to provide a specific 
number of those within the District of Columbia.
    We have surveyed them to make sure that they meet some 
basic criteria for being able to accommodate the immediate and 
emergency needs of people.
    Ms. Norton. We would very much appreciate those numbers.
    Mr. Sarubbi and Mr. Wall, have there been any discussions 
within the region of differences in gun laws and capacity in 
the event of a gun event in this city or region?
    Mr. Sarubbi. Again, Madam Chairman, our role within FEMA is 
to provide support to our State and local partners----
    Ms. Norton. All right, then let me ask Mr. Wall, since he 
is the coordinator.
    Have you assumed, Mr. Wall, that all have different gun 
laws, and yet if there were a spraying, such as of a motorcade 
where dignitaries traveled daily, or an event involving guns, 
have you assumed that there are different gun laws in how you 
would handle such an event? Have there at least been 
discussions on a coordinating level of that kind?
    Mr. Wall. I have not been involved in any conversation of--
--
    Ms. Norton. How would those discussions have occurred, sir, 
if they occurred at all? If not within an office whose job it 
is to do coordination, where and with what form would they have 
occurred?
    Mr. Wall. As I said, I am not aware of discussions that 
have occurred----
    Ms. Norton. Could I ask you to--go ahead.
    Mr. Wall. There are forums, as mentioned before, at the 
Metropolitan Washington Council of Government, where chiefs of 
police and our law enforcement folks from the region get 
together and talk about law enforcement issues. I would imagine 
that such a discussion would happen in one of those forums.
    Ms. Norton. As a coordinator, I would ask that, if such 
discussions occur, you be informed of them so that you can know 
that such a--I mean, it is hard to understand what the role of 
a coordinator is if not to at least understand what is being 
discussed among the various parties he coordinates.
    Mr. Wall. Yes, ma'am. And we do have representatives in 
each of those meetings. And what I am saying is, to my 
knowledge, the specific discussion that you mentioned has not 
occurred.
    Ms. Norton. In light of the fact that the testimony here 
has been that a gun attack would be more likely than any other 
attack in the District of Columbia today given risk analysis, 
could I ask that you assure this Subcommittee that such 
discussions do, in fact, occur?
    Mr. Wall. Yes, ma'am.
    Ms. Norton. I appreciate it.
    Mr. DeAtley, ER One has been a major concern to me. It 
would be the only system capable of receiving people who were 
contaminated and of decontaminating them in large numbers.
    You have apparently received some funds, some $5 million 
from HHS to improve emergency preparedness. Were any of these 
related to the so-called ER One, which would, of course, be a 
demonstration project but would also be such a facility here in 
the District of Columbia to handle contamination of people in 
the region?
    Mr. DeAtley. No, ma'am. The coalition's focus primarily has 
been across the spectrum over the health care facilities.
    $100,000 of the $5 million is being spent on developing 
what we refer to as the ceiling membrane concept. That would be 
studying the airflow using a revised filter or ceiling tile 
being strategically in rooms that would isolate and contain 
contagions, if you will.
    But that is a concept development. The rest of the money is 
going to a broader coalition set of deliverables than 
decontamination.
    Ms. Norton. So most of the money to decontaminate people, 
for example--you are the closest hospital or one of the closest 
hospitals straight up the way from the Congress, from the 
Supreme Court. Most of the money to do decontamination, if 
there was contamination, for example, some kind of 
contamination got set loose in the Capitol or in the Supreme 
Court or in the White House, you do not have the funds 
presently to decontaminate individuals, officials, residents, 
and the like?
    Mr. DeAtley. All of the hospitals in the District of 
Columbia and the national capital region, including the 
Hospital Center, have spent their own moneys to a point in 
building their current capacity. That initial outlay of funding 
and its sustainment cost has been supplemented periodically by 
other sources of funding, including a grant which is currently 
in place to focus just on mass decontamination where hospitals 
and hazardous material team personnel are working together to 
do a gap analysis--that has been completed--to purchase 
equipment to fill the gap and, once that equipment arrives, to 
initiate training to use that equipment so there can be a 
greater sharing.
    That all having been said, additional funding support would 
be keenly appreciated by hospitals, especially to sustain, if 
not to expand, our current capability.
    Ms. Norton. Well, as important as it is, indeed it is 
vitally important, that local hospitals be able to do 
decontamination, what is the point of ER One as a major 
facility for decontamination?
    Mr. DeAtley. Well, the Washington Hospital Center, as I 
said previously, is the largest hospital in the national 
capital region. So, being the largest facility, having the 
busiest ER and the only adult burn unit, we fully expect that 
in incidences throughout the national capital region we will 
get a large percentage of that population coming to our 
facility.
    Ms. Norton. Would your plan be to direct, to the extent 
possible, if ER One were to become fully operative, that such 
patients be brought to that facility as opposed to other 
facilities?
    Mr. DeAtley. Well, we are not trying to advocate for taking 
patients away, so much as we are trying to be, as a facility, 
prepared for the unusually large number of patients that we 
would expect to see because of who we are and where we are 
located.
    ER One is all about taking a concept of what the ideal 
facility is to be designed like to now request funding to build 
that facility, to have that enhanced capability, while at the 
same time serving as a national model, a study place, if you 
will, for further developing scientific approaches to some of 
these ongoing problems.
    Ms. Norton. With the Secretary, the first Secretary of HHS 
under President George W. Bush, I came to the Washington 
Hospital Center, sat with your personnel, and had a very 
impressive briefing of what ER One would look like and how it 
would operate.
    As I understood it, the Washington Hospital Center was 
prepared to invest considerable funds on its own into that 
center. Could you discuss that, please?
    Mr. DeAtley. Yes, ma'am. I am not the one that is 
ultimately in charge of that design, but, from my perspective 
of being one of five directors of the institutes that 
constitute ER One, I know that the Washington Hospital Center 
had, particularly early on, spent significant sums of its own 
operating capital to fund an improvement in the emergency 
department itself and then, using funding that came from the 
city and from the Federal Government, to build what we now have 
as the ready room.
    And what we have built from that is additional funding to 
do the first and the second phase of the ER One project, which 
was to take a subject matter group of experts to define what 
should we be doing, how better could we be doing it. That was 
phase one. Then working with architects to design the facility 
capable of operationalizing those concepts. And that leads us 
up to this current phase three, where, with that additional 
funding to match what the Washington Hospital Center and 
MedStar Health is willing to commit, to build----
    Ms. Norton. If the funding were available, would you be 
prepared to start--with the design work having been done, as I 
hear your testimony, would you be prepared to start in building 
such a decontamination facility in the District of Columbia?
    Mr. DeAtley. We would be anxious and quite willing to 
proceed as quickly as possible.
    Ms. Norton. Mr. DeAtley, would you, within 10 days, get to 
this Committee a record of the funds from Washington Hospital 
Center, non-Federal sources, District of Columbia, Washington 
Hospital Center and other non-Federal sources that have already 
been committed to or would become committed if the Federal 
funds were available?
    Mr. DeAtley. Yes, ma'am, we would be glad to.
    Ms. Norton. Ms. Mathes, we understand that the Red Cross is 
indispensable. We have seen you operate so often, giving food 
and shelter. Do you give cash to victims of disasters, of 
natural disasters or, for that matter, other disasters?
    Ms. Mathes. We do provide assistance to family members to 
assist in their purchasing the kind of food and clothing and 
health and medical supplies they need.
    Ms. Norton. What is the extent of your Federal funding in 
the District of Columbia? How much of your funds come from 
Federal sources, what percentage from private sources?
    Ms. Mathes. Virtually all of our funding comes from private 
sources. We are totally dependent upon people giving of their 
time and their money to make Red Cross services possible.
    We have applied a couple of times in the past few years for 
the Urban Area Security Initiatives funding and have been 
fortunate to receive some funding for equipment and supplies. 
But, otherwise, it is the people of this community who are 
making our services possible.
    Ms. Norton. And is that in the event of a natural or man-
made disaster as well?
    Ms. Mathes. Yes.
    Ms. Norton. It is important to put that on the record, 
because people see the Red Cross on the job so often when there 
is a natural disaster such as the one we just had in North 
Dakota, Minnesota, Kentucky. And they just figure you are one 
of us. And it is important that the record know that is one of 
you; that is to say, that is the people of the United States of 
America. And we are grateful for those contributions.
    You have testified, Ms. Mathes, that there are 
approximately 55 volunteers to each paid staff member in the 
national capital region. I don't know how to evaluate that 
compared to other regions. Is it high or low compared with 
other metropolitan regions?
    Ms. Mathes. Thank you. We like it to be higher. Again, back 
to the important role a volunteer can play----
    Ms. Norton. How does it compare with New York, Los Angeles, 
Chicago, and the like, for example?
    Ms. Mathes. Madam Chairwoman, I am not certain of their 
percentages, their ratios. We find it very important to track 
that ratio; not all of our colleagues do. I would be happy to 
follow up and report back to you on it.
    Ms. Norton. It would be very important for us to be able to 
say to our region how we compare with the other regions. You 
heard me name four other cities, which really means regions--
San Francisco, Chicago, and what am I leaving out? New York. 
How could I? All of whom are in the top four. It would be 
important for us to know what the ratio of volunteers here is 
compared to there.
    Mr. DeAtley, there is a District of Columbia Health Care 
Coalition. Who are they? And who is responsible for calling 
that coalition into action?
    Mr. DeAtley. The coalition was created as a result of that 
HHS grant that I spoke about earlier. It is a combination of 
all of the city government agencies that have health care 
responsibilities, coupled with all of the other private-sector 
health care organizations. We have never seen such a coalition 
in my 36 years of working here in the city before December of 
2007.
    Insofar as the action is concerned, it is present itself on 
a daily basis. By that I mean there is a duty officer, for 
example, that is standing watch, representing the coalition, 
working with----
    Ms. Norton. Is that a duty officer in every particular 
hospital?
    Mr. DeAtley. No, ma'am. That is one duty officer. There is 
13 of us that volunteer to take this weekly tour of duty, if 
you will.
    Ms. Norton. Rotating?
    Mr. DeAtley. Rotating responsibility. There is a primary 
and a backup.
    There is an additional source of volunteers to--if an event 
were to happen in the city, we could activate depending upon 
the situation what we call our Health Care Coalition Response 
Team to work with that duty officer to support the District of 
Columbia, principally HSEMA and DOH, to deal with health care 
system delivery-related problems.
    But the core of the effort, quite candidly, is the 
Emergency Management Committee that is meeting every 2 weeks 
that volunteer committee members from all of the member 
organizations to do the development work, the policies, the 
procedures. We are right now beginning to plan a citywide 
exercise to be held in June, all in an effort to improve our 
preparedness.
    Ms. Norton. Indeed, you presaged a question. I want to know 
if ER One has ever had a test-run of capabilities, or are you 
waiting for the funding?
    Mr. DeAtley. No, ma'am. The ER One, the Washington Hospital 
Center stands ready to respond to an emergency right now. We 
have a decontamination capability. We train our personnel. We 
have the equipment to at least start that effort. So it is not 
about having no capability; we are talking about improving that 
capability.
    Ms. Norton. If, indeed, there was some kind of 
contamination, how many people in the District of Columbia or 
region could you handle today?
    Mr. DeAtley. One, I would like to reiterate that it would 
not be a single facility that would be successful. It needs to 
be a combination of facilities.
    But, in our particular case, particularly during what I 
will call prime-time business hours, up until 8 o'clock at 
night, we could process with our current staffing and equipment 
for at least a 3-hour period of time roughly 100 critical 
patients an hour and 200 noncritical participants. That is the 
most that we could do.
    Lesser staffing, off-hours, then that would begin to drop 
off.
    Ms. Norton. Now, does ER One assume that, in the event of 
an event involving contamination, that some hospitals at least, 
for example, you are located in northwest Washington, might be 
able, given how you share apparently and have your duty officer 
and the rest, might be able to direct, despite some capability 
on their own, that participants be taken to the larger 
capability at ER One? For example, Howard University Hospital, 
which is close by; for that matter, Walter Reed, which is close 
by; some of the other hospitals perhaps.
    Does the existence of a very special hospital, with larger 
capacity than others, assume that there would be some capacity 
to take referrals from others in the event of a capacity rather 
than do what you do now, which is everybody is on his own?
    Mr. DeAtley. We are working hard with D.C. Fire-EMS and 
their hazardous material team officials for a situation like 
you described, to try and ensure that facilities are not 
brought patients in excess of their current capability.
    Would we at the Hospital Center expect for an incident in 
the city to receive more patients than the other hospitals? 
That is entirely plausible, and we are trying to prepare for 
that possibility, most definitely.
    What I would like to reiterate, the strength of the system 
is not having one that can do it all. It is the sum of the 
parts that we need to continue to struggle to improve upon.
    Ms. Norton. That is a very important point. But I ask this 
question because, to the extent that the Federal Government is 
supposed to be paying for a central facility, which is a 
facility for demonstrating to the entire Nation and a facility 
for the District of Columbia and the region, the Congress is 
likely to expect some specialization if Federal money is going 
into such an activity. But fully understanding precisely what 
you said, we would also expect everybody to be able to handle 
patients as they receive them.
    Mr. DeAtley. If I may follow up on that comment, while we 
are talking about decontamination as one aspect, I would also 
point out that the ER One project, the concept design is about 
treating patients of a variety of different problem sets, 
whether it would be trauma from an explosion, biologic in 
nature, as well as contamination from a chemical or radiologic 
incident.
    Ms. Norton. That is an important point, as well. On the 
other hand, it is a contamination point that I think would most 
interest the Federal Government. Because there you would have 
to have not only the people who do what you do every day--look, 
we have a lot of gun trauma. If we had an explosion, somebody 
who works in a trauma emergency room would know how to handle 
that.
    But I am not certain that the same capability throughout 
the region would exist if some unknown substance--first of all, 
it would be unknown. Secondly, it would be dispersed around the 
region and then have everybody trying to figure out what it is, 
what personnel would be best suited to handle that kind of 
contamination. That is the kind of expertise that I believe we 
are looking for in ER One.
    Mr. DeAtley. Yes, ma'am.
    Ms. Norton. One final question. The, perhaps, most 
pathetic, most tragic part of Katrina had to do with people who 
could not take care of themselves, and these were patients, 
trauma patients who were in hospitals.
    I would like to ask if the Red Cross has any coordinator 
for persons with disability. I am not dealing with hospitals 
now; that, I have to assume, the hospitals understood. But the 
region has very generous programs for dealing with people with 
disabilities. How would the Red Cross handle large numbers of 
people with various kinds of disabilities?
    We have everything from Gallaudet, where people are hard of 
hearing or cannot hear at all, sometimes cannot speak; to 
people who are in group homes; to children who go to special 
schools to get special education. This is a region that has 
many special facilities for disabled people.
    How would the Red Cross handle an event with so many widely 
dispersed people with disabilities across the region?
    Ms. Mathes. Excellent question. Madam Chairwoman, we work 
closely with partners who specialize in working with people of 
special needs and disabilities. We engage them in planning 
efforts and in the execution of them. So we would count on our 
close working partnerships with our colleagues in the 
government, as well as our nonprofit colleagues, who work 
closely with people with special needs and disabilities.
    We work, for example, with the National Organization on 
Disability to anticipate the needs of people with special needs 
and disabilities in coming into shelters. We have acquired 
quite a bit of equipment specifically to accommodate people 
with special needs; also children, special equipment for 
children, for sheltering.
    We have worked with partner organizations to mount 
preparedness efforts, preparedness education efforts, to assist 
with what we have talked about earlier today in terms of 
helping families develop emergency preparedness plans.
    Ms. Norton. Well, staff tells me, Mr. Sarubbi, that, after 
Katrina, headquarters now has a disability coordinator by 
statute. That is one of the things we learned from Katrina. Is 
there a disability coordinator in this region and, to your 
knowledge, in other regions?
    Mr. Sarubbi. There is a disability coordinator at the 
national level. Each of the FEMA regions do not have a 
disability coordinator. But we work closely, similar as to what 
my Red Cross colleague indicated, with our partners in helping 
to assess the evacuation and sheltering of people with special 
needs, particularly special medical needs.
    For example, we have been working on a project here, the 
last 2 1/2 years, called the gap analysis, where the scenario 
would be a Category 3 hurricane. How would we deal with the 
evacuation of people with special medical needs? We have been 
looking at ways of enhancing that capability, also working 
closely with our partners at HHS.
    It is not an issue that has been resolved as of yet. There 
is still much work to be done in that area. But it is certainly 
one of our focuses, particularly here in Region III, in the 
national capital region, as well as for a hurricane scenario in 
the Hampton Roads area, which is an area that is extremely 
vulnerable to a direct hit by a hurricane and, because of the 
geography of the area, would be particularly difficult in 
evacuating citizens, particularly citizens or people with 
special medical needs.
    Ms. Norton. Thank you, Mr. Sarubbi.
    May I ask that, of all of the--one of the things that we 
had testimony here today was about the use of July 4th as a 
real-time exercise. And something we would like to see in this 
region is more real-time exercises.
    But I have to ask you that, of all--you know, for the 
average person, which might be a quick learner, we have seen 
very good results when people are told what to do, who have all 
of their capabilities. Without real-time exercises, perhaps 
they could get through.
    I would ask, in this region, that you consider real-time 
exercises for people with disabilities. They are all over the 
region. They are often away from their home base. Without real-
time exercises, I have no confidence that a disabled person of 
whatever disability would necessarily be prepared, as any able-
bodied person might, to simply do what the person is instructed 
to do, where sign language may be necessary, where the person 
could be handicapped in other ways.
    So I would ask FEMA, through your disability coordinator 
established by statute after Hurricane Katrina, to consider 
real-time exercises throughout the United States, of course, 
but particularly in this region, where we are more vulnerable 
than most other regions.
    Mr. Sarubbi. I will certainly do that, Madam Chairman. And, 
as I indicated earlier, that is an area of emphasis for us, to 
continue to work with people with special medical needs. And, 
certainly, having real-time exercises, I think, is an important 
step in that direction. Thank you.
    Ms. Norton. I know that all of you have waited a very long 
time for us to testify and then to undergo my cross-
examination, as it were. But all I am trying to do is to get on 
the record what we need to know in order to respond to your 
needs.
    I have found the testimony of each and every one of you 
invaluable. And may I thank you, first of all, for your great 
patience in waiting so long, but most of all for your very 
valuable testimony. Thank you very much.
    And this hearing is finally at an end.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8880.005
    
    [GRAPHIC] [TIFF OMITTED] T8880.006
    
    [GRAPHIC] [TIFF OMITTED] T8880.007
    
    [GRAPHIC] [TIFF OMITTED] T8880.008
    
    [GRAPHIC] [TIFF OMITTED] T8880.009
    
    [GRAPHIC] [TIFF OMITTED] T8880.010
    
    [GRAPHIC] [TIFF OMITTED] T8880.011
    
    [GRAPHIC] [TIFF OMITTED] T8880.012
    
    [GRAPHIC] [TIFF OMITTED] T8880.013
    
    [GRAPHIC] [TIFF OMITTED] T8880.014
    
    [GRAPHIC] [TIFF OMITTED] T8880.015
    
    [GRAPHIC] [TIFF OMITTED] T8880.016
    
    [GRAPHIC] [TIFF OMITTED] T8880.017
    
    [GRAPHIC] [TIFF OMITTED] T8880.018
    
    [GRAPHIC] [TIFF OMITTED] T8880.019
    
    [GRAPHIC] [TIFF OMITTED] T8880.020
    
    [GRAPHIC] [TIFF OMITTED] T8880.021
    
    [GRAPHIC] [TIFF OMITTED] T8880.022
    
    [GRAPHIC] [TIFF OMITTED] T8880.023
    
    [GRAPHIC] [TIFF OMITTED] T8880.024
    
    [GRAPHIC] [TIFF OMITTED] T8880.025
    
    [GRAPHIC] [TIFF OMITTED] T8880.026
    
    [GRAPHIC] [TIFF OMITTED] T8880.027
    
    [GRAPHIC] [TIFF OMITTED] T8880.028
    
    [GRAPHIC] [TIFF OMITTED] T8880.029
    
    [GRAPHIC] [TIFF OMITTED] T8880.030
    
    [GRAPHIC] [TIFF OMITTED] T8880.031
    
    [GRAPHIC] [TIFF OMITTED] T8880.032
    
    [GRAPHIC] [TIFF OMITTED] T8880.033
    
    [GRAPHIC] [TIFF OMITTED] T8880.034
    
    [GRAPHIC] [TIFF OMITTED] T8880.035
    
    [GRAPHIC] [TIFF OMITTED] T8880.036
    
    [GRAPHIC] [TIFF OMITTED] T8880.037
    
    [GRAPHIC] [TIFF OMITTED] T8880.038
    
    [GRAPHIC] [TIFF OMITTED] T8880.039
    
    [GRAPHIC] [TIFF OMITTED] T8880.040
    
    [GRAPHIC] [TIFF OMITTED] T8880.041
    
    [GRAPHIC] [TIFF OMITTED] T8880.042
    
    [GRAPHIC] [TIFF OMITTED] T8880.043
    
    [GRAPHIC] [TIFF OMITTED] T8880.044
    
    [GRAPHIC] [TIFF OMITTED] T8880.045
    
    [GRAPHIC] [TIFF OMITTED] T8880.046
    
    [GRAPHIC] [TIFF OMITTED] T8880.047
    
    [GRAPHIC] [TIFF OMITTED] T8880.048
    
    [GRAPHIC] [TIFF OMITTED] T8880.049
    
    [GRAPHIC] [TIFF OMITTED] T8880.050
    
    [GRAPHIC] [TIFF OMITTED] T8880.051
    
    [GRAPHIC] [TIFF OMITTED] T8880.052
    
    [GRAPHIC] [TIFF OMITTED] T8880.053
    
    [GRAPHIC] [TIFF OMITTED] T8880.054
    
    [GRAPHIC] [TIFF OMITTED] T8880.055
    
    [GRAPHIC] [TIFF OMITTED] T8880.056
    
    [GRAPHIC] [TIFF OMITTED] T8880.057
    
    [GRAPHIC] [TIFF OMITTED] T8880.058
    
    [GRAPHIC] [TIFF OMITTED] T8880.059
    
    [GRAPHIC] [TIFF OMITTED] T8880.060
    
    [GRAPHIC] [TIFF OMITTED] T8880.061
    
    [GRAPHIC] [TIFF OMITTED] T8880.062
    
    [GRAPHIC] [TIFF OMITTED] T8880.063
    
    [GRAPHIC] [TIFF OMITTED] T8880.064
    
    [GRAPHIC] [TIFF OMITTED] T8880.065
    
    [GRAPHIC] [TIFF OMITTED] T8880.066
    
    [GRAPHIC] [TIFF OMITTED] T8880.067
    
    [GRAPHIC] [TIFF OMITTED] T8880.068
    
    [GRAPHIC] [TIFF OMITTED] T8880.069
    
    [GRAPHIC] [TIFF OMITTED] T8880.070
    
    [GRAPHIC] [TIFF OMITTED] T8880.071
    
    [GRAPHIC] [TIFF OMITTED] T8880.072
    
    [GRAPHIC] [TIFF OMITTED] T8880.073
    
    [GRAPHIC] [TIFF OMITTED] T8880.074
    
    [GRAPHIC] [TIFF OMITTED] T8880.075
    
    [GRAPHIC] [TIFF OMITTED] T8880.076
    
    [GRAPHIC] [TIFF OMITTED] T8880.077
    
    [GRAPHIC] [TIFF OMITTED] T8880.078
    
    [GRAPHIC] [TIFF OMITTED] T8880.079
    
    [GRAPHIC] [TIFF OMITTED] T8880.080
    
    [GRAPHIC] [TIFF OMITTED] T8880.081
    
    [GRAPHIC] [TIFF OMITTED] T8880.082
    
    [GRAPHIC] [TIFF OMITTED] T8880.083
    
    [GRAPHIC] [TIFF OMITTED] T8880.084
    
    [GRAPHIC] [TIFF OMITTED] T8880.085
    
    [GRAPHIC] [TIFF OMITTED] T8880.086
    
    [GRAPHIC] [TIFF OMITTED] T8880.087
    
    [GRAPHIC] [TIFF OMITTED] T8880.088
    
    [GRAPHIC] [TIFF OMITTED] T8880.089
    
    [GRAPHIC] [TIFF OMITTED] T8880.090
    
    [GRAPHIC] [TIFF OMITTED] T8880.091
    
    [GRAPHIC] [TIFF OMITTED] T8880.092
    
    [GRAPHIC] [TIFF OMITTED] T8880.093
    
    [GRAPHIC] [TIFF OMITTED] T8880.094
    
    [GRAPHIC] [TIFF OMITTED] T8880.095
    
    [GRAPHIC] [TIFF OMITTED] T8880.096
    
    [GRAPHIC] [TIFF OMITTED] T8880.097
    
    [GRAPHIC] [TIFF OMITTED] T8880.098
    
    [GRAPHIC] [TIFF OMITTED] T8880.099
    
    [GRAPHIC] [TIFF OMITTED] T8880.100
    
    [GRAPHIC] [TIFF OMITTED] T8880.101
    
    [GRAPHIC] [TIFF OMITTED] T8880.102
    
    [GRAPHIC] [TIFF OMITTED] T8880.103
    
    [GRAPHIC] [TIFF OMITTED] T8880.104
    
    [GRAPHIC] [TIFF OMITTED] T8880.105
    
    [GRAPHIC] [TIFF OMITTED] T8880.106
    
    [GRAPHIC] [TIFF OMITTED] T8880.107
    
    [GRAPHIC] [TIFF OMITTED] T8880.108
    
    [GRAPHIC] [TIFF OMITTED] T8880.109
    
    [GRAPHIC] [TIFF OMITTED] T8880.110
    
    [GRAPHIC] [TIFF OMITTED] T8880.111
    
    [GRAPHIC] [TIFF OMITTED] T8880.112
    
    [GRAPHIC] [TIFF OMITTED] T8880.113
    
    [GRAPHIC] [TIFF OMITTED] T8880.114
    
    [GRAPHIC] [TIFF OMITTED] T8880.115
    
    [GRAPHIC] [TIFF OMITTED] T8880.116
    
    [GRAPHIC] [TIFF OMITTED] T8880.117
    
    [GRAPHIC] [TIFF OMITTED] T8880.118
    
    [GRAPHIC] [TIFF OMITTED] T8880.119
    
    [GRAPHIC] [TIFF OMITTED] T8880.120
    
    [GRAPHIC] [TIFF OMITTED] T8880.121
    
    [GRAPHIC] [TIFF OMITTED] T8880.122
    
    [GRAPHIC] [TIFF OMITTED] T8880.123
    
    [GRAPHIC] [TIFF OMITTED] T8880.124
    
    [GRAPHIC] [TIFF OMITTED] T8880.125
    
    [GRAPHIC] [TIFF OMITTED] T8880.126
    
    [GRAPHIC] [TIFF OMITTED] T8880.127
    
    [GRAPHIC] [TIFF OMITTED] T8880.128
    
    [GRAPHIC] [TIFF OMITTED] T8880.129
    
    [GRAPHIC] [TIFF OMITTED] T8880.130
    
    [GRAPHIC] [TIFF OMITTED] T8880.131
    
    [GRAPHIC] [TIFF OMITTED] T8880.132
    
                                    

</pre></body></html>
